<html>
<title> - [H.A.S.C. No. 113-14] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-14] 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

   THE POSTURE OF THE U.S. STRATEGIC COMMAND AND U.S. PACIFIC COMMAND

                               __________

                              HEARING HELD

                             MARCH 5, 2013

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-955 PDF                       WASHINGTON : 2013 



                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
                         Tim Morrison, Counsel
                        Spencer Johnson, Counsel
                         Leonor Tomero, Counsel
                      Aaron Falk, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, March 5, 2013, The Posture of the U.S. Strategic Command 
  and U.S. Pacific Command.......................................     1

Appendix:

Tuesday, March 5, 2013...........................................    43
                              ----------                              

                         TUESDAY, MARCH 5, 2013
   THE POSTURE OF THE U.S. STRATEGIC COMMAND AND U.S. PACIFIC COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Kehler, Gen C. Robert, USAF, Commander, U.S. Strategic Command...     3
Locklear, ADM Samuel J., USN, Commander, U.S. Pacific Command....     5

                                APPENDIX

Prepared Statements:

    Kehler, Gen C. Robert........................................    51
    Locklear, ADM Samuel J.......................................    74
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Smith, Hon. Adam.............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................   115
    Mr. Langevin.................................................   115

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................   128
    Mr. Bridenstine..............................................   129
    Mr. Johnson..................................................   126
    Mr. Langevin.................................................   122
    Mr. Larsen...................................................   122
    Mr. McKeon...................................................   119
    Mr. Rogers...................................................   123
    Ms. Shea-Porter..............................................   127
    Mr. Wittman..................................................   126
   THE POSTURE OF THE U.S. STRATEGIC COMMAND AND U.S. PACIFIC COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 5, 2013.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. I would 
like to welcome everyone to today's hearing on the posture of 
the U.S. Strategic Command and the U.S. Pacific Command. 
Unfortunately we still don't have a budget from the President 
and sequestration has now taken effect. But this committee 
intends to move ahead with our annual posture hearings to 
ensure there are no gaps in the committee's oversight. With 
that in mind, I would like to thank our two witnesses for 
agreeing to be the first to testify in our posture hearing 
lineup.
    With us today we have General C. Robert Kehler, the 
Commander of U.S. Strategic Command, and Admiral Samuel L. 
Locklear, the Commander of U.S. Pacific Command. General 
Kehler, I know you have many different hats that you wear, from 
missile defense, to cyber, to nuclear deterrence. I am deeply 
troubled about what sequestration means to these areas of 
responsibility, which pose existential challenges to this 
Nation. I also am very concerned by the direction the President 
wants to go in driving further U.S. nuclear reductions at the 
present time.
    I understand the President has been considering a new 
nuclear guidance document that will seek to reduce our nuclear 
forces even further. If that is in fact the case, nothing has 
been shared with this committee. Furthermore, it is not clear 
to me why this is necessary. It certainly does nothing to deal 
with threats like North Korea or Iran. As for Russia, why would 
we believe we can trust Vladimir Putin to honor new arms 
control agreements, when he has shown a consistent willingness 
to violate current arms control agreements, when he denies 
visas to members of this body to travel to Russia, and when he 
uses adoptive children as props in his neonationalism?
    I am especially concerned and suspicious when the President 
appears to be attempting to avoid the Senate and the Congress 
in getting such an agreement. Without a formal ratified treaty, 
any agreement will inherently be nonbinding. We know the 
Russians will violate such an agreement, as they did when we 
tried this in the early 1990s. General Kehler, understanding 
that you must support your chain of command, today I hope to 
explore further why additional reductions are in our best 
interest, especially since we no longer have a production 
capacity.
    Admiral Locklear, it has been over a year since the 
President released the Defense Strategic Guidance and outlined 
the rebalancing to Asia. I am concerned about recent 
developments in Asia and how PACOM [Pacific Command] is 
postured to respond to a crisis. North Korea's threats and 
their nuclear and missile programs continue unabated. China's 
dangerous actions in the South and East China Seas pose a 
threat to our regional allies, and partners, to U.S. national 
security interests, and to the sea lines of communication that 
are vital to global economic stability.
    This committee will continue to ask for more details on 
what the rebalancing means, and how we can hope to deliver on 
the new strategy in light of other operational demands and lack 
of resources. I want to thank you both again for being with us 
here today. Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you Mr. Chairman. I too want to thank our 
witnesses, General Kehler, Admiral Locklear, appreciate you 
being here today, and appreciate your service to our country. I 
think the greatest challenge is the one that the chairman 
outlined: how do you continue to carry out your missions and 
your plans, in light of sequestration? We have built a strategy 
based on a certain budget, and now that budget is dramatically 
different. And it is not just sequestration, it is the lack of 
an appropriations bill for the first 5 months of this fiscal 
year and perhaps longer depending on what happens in the next 
weeks ahead.
    It is very difficult for you gentleman to do your job when 
you don't know exactly how much money you are going to have, 
and then when that changes from month to month. We in Congress 
need to pass appropriations bills for all discretionary 
spending, not just defense, to make it easier to govern, and 
make those decisions. In light of that I think the most 
interesting thing that we have to talk about this morning is, 
how that impacts the plans. Particularly in Asia, where we have 
made, you know, much talk about the pivot to Asia, the focus on 
its importance, which I think is perfectly appropriate.
    It is a region of enormous importance that we should be 
focusing intently on, building as many positive relationships 
in that region as we can. I understand that Pacific Command is 
a very important piece of that, and I think in 2011, or 2012, I 
forget which, there were over 700 port calls that were done by 
our Navy throughout the Asian theater. That is a way to build 
relationships, and part of that effort to build the 
partnerships we need there. I want to know how that process is 
going, and how sequestration challenges it.
    And then of course specifically the threat of North Korea, 
and the impact that that has on the region.
    In Strategic Command, there are also obviously a number of 
challenges, starting with our nuclear arsenal. You know, what 
is the purpose and mission of that arsenal? What do the numbers 
need to be, to meet the requirements that we have? I personally 
think that it is very appropriate, some, gosh over 20 years 
after the Cold War, to continue to reexamine, you know, what 
size of a nuclear arsenal we need? When we are making difficult 
budget decisions, what are our most important national security 
objectives? Are there ways to find savings within the nuclear 
arsenal? I believe that there are and I am anxious to hear more 
about how we implement that.
    And then of course, the incredible importance of missile 
defense. We have seen its impact in the Middle East. We know 
the threat that is rising from Iran and North Korea, how do we 
posture our forces and invest in missile defense technology to 
best meet those threats, again, within the tight budget 
constraints that we have.
    So I look forward to testimony and questions from the 
members. I thank you both for being here, for your service to 
our country and I thank the chairman for holding this meeting.
    With that, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Thank you.
    General Kehler.

   STATEMENT OF GEN C. ROBERT KEHLER, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Kehler. Thank you, Mr. Chairman. If it is 
permissible with you, I would like to make my full statement a 
part of the record.
    The Chairman. Without objection, both of your full 
statements will be in the record.
    General Kehler. Thank you, sir.
    The Chairman. So ordered.
    General Kehler. And good morning to you, Ranking Member 
Smith, distinguished members of the committee, I am certainly 
honored to join with all of you today.
    It is a privilege to begin my third year leading the 
outstanding men and women of the United States Strategic 
Command.
    I am also pleased to be here with Admiral Sam Locklear, a 
great colleague whose responsibilities as Commander of Pacific 
Command cover some of the most critical areas and issues on the 
globe.
    Pacific Command and Strategic Command are the closest of 
partners. Admiral Locklear and I collaborate frequently and I 
greatly value his leadership, vision and counsel.
    Uncertainty and complexity continue to dominate the 
national security landscape, even as the United States 
transitions from a decade of active conflict in Southwest Asia.
    Uncertainty and complexity make this transition unlike any 
we have experienced in the past. Many regions of the world 
remain volatile and increasing economic and information 
connections mean regional issues can quickly have global 
consequences. Events over the past year validate this 
perspective.
    Since my last appearance before the committee, we have seen 
violent extremists continue to act against or threaten U.S. 
interests, citizens, allies, partners and our homeland.
    Cyber activity has increased in both quantity and intensity 
with the potential for greater exploitation of U.S. 
intellectual property, institutions and critical 
infrastructure.
    Iran's nuclear ambitions remain concerning. North Korea 
conducted a missile launch in violation of its obligations 
under multiple U.N. [United Nations] Security Council 
Resolutions and announced last month, it conducted another 
nuclear test.
    Civil war continues in Syria, and Russia and China continue 
to improve and demonstrate their strategic capabilities.
    Fiscal uncertainty is adding additional unique challenges. 
Not only are the additional sequestration reductions steep, but 
the law allows little flexibility in how to apply them and we 
are also working from a continuing resolution while 
transitioning contingency needs to the base budget, this during 
a time when continued readiness is essential, modernization is 
overdue, violent extremists remain active, threats in space and 
cyberspace are increasing and the possibility of nuclear and 
ballistic missile proliferation persists.
    As we confront these challenges, our enemies and potential 
enemies are watching. In this uncertain and complex world, 
STRATCOM [Strategic Command] remains focused on conducting the 
missions that are most critical to protect our core national 
security interests. My priorities support this focus.
    Our fundamental purpose remains constant. With the other 
combatant commands, we must deter, detect and prevent attacks 
against the United States, assure our friends and allies of our 
security commitments to them and if directed, employ 
appropriate force to achieve national objectives should 
deterrence fail.
    To do this, our men and women wield a range of 
complementary capabilities to create the tailored effects the 
Nation needs. Our primary objective is to prevent conflict by 
influencing in advance the perceptions, assessments and 
decisions of those who would consider threatening our vital 
national interests.
    Ultimately, this requires the continuing credibility of 
America's military capabilities brought to bear in concert with 
other elements of national power.
    While our heritage is nuclear and our nuclear vigilance 
will never waiver as long as those weapons exist, STRATCOM's 
activities today are far more diverse and versatile.
    Mr. Chairman, I am pleased to report that STRATCOM is 
capable of executing its assigned mission responsibilities 
today. However, given the potential impact fiscal uncertainty 
and declining resources could have on STRATCOM, I am concerned 
that I may not be able to say the same in 6 months or a year.
    I am most concerned with the impact financial uncertainty 
is having on our people. Uniformed and non-uniformed members 
alike have managed the effects of sustained high stress combat 
deployment and operational tempos. They willingly take personal 
risks for their country but they are fearful of taking 
financial risk for their families.
    Hiring restrictions, salary freezes and the likelihood of 
unpaid furloughs, are especially troubling to our civilians. 
Civilians comprise about 60 percent of the STRATCOM 
headquarters staff. They hold key leadership positions. They 
represent critical expertise and they represent much of the 
essential workforce which provides crucial functions like 
intelligence, maintenance and sustainment.
    Because they are such dedicated patriots, I believe our 
military and civilian members will cope with the effects of 
financial uncertainty in the near term. But I worry that over 
time, our most experienced professionals will retire early and 
our best young people will leave to pursue more stable 
opportunities elsewhere. We are detecting hints of that now.
    Beyond the human dimension, sequestration will eventually 
impact the command's readiness and curtail growth in new areas 
like cyber defense. Even though the services are trying to give 
STRATCOM's missions as much priority treatment as possible 
within the law, we could not remain immune.
    So while the immediate impact will vary by command, overall 
in STRATCOM, the effect is like an avalanche. Seemingly small 
initial impacts are going to grow. As time passes, we will see 
greater impacts to the nuclear deterrent, global strike missile 
warning and missile defense, situational awareness in both 
space and cyberspace, and to our support for warfighters around 
the globe.
    In the longer term, continuing on this financial path will 
affect STRATCOM's modernization and long-term sustainment 
needs, potentially eliminating or jeopardizing a number of 
important recapitalization efforts. Ultimately, reduced 
readiness and curtailed modernization will damage the perceived 
credibility of our capabilities increasing the risk to 
achieving our primary deterrence and assurance objectives. Mr. 
Chairman, STRATCOM's responsibilities have not changed. But the 
strategic and fiscal environment in which we must carry them 
out is much different than a year ago. I remain enormously 
proud of the superb men and women I am privileged to lead and 
convinced we can meet our mission responsibilities today. But 
the pathway we are on creates growing risks to our defense 
strategy and our ability to execute it.
    I look forward to working with this committee and Congress 
on these difficult and complex challenges and I look forward to 
your questions.
    Thank you.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 51.]
    The Chairman. Thank you very much.
    Admiral Locklear.

   STATEMENT OF ADM SAMUEL J. LOCKLEAR, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Locklear. Good morning Chairman, Ranking Member 
Smith, distinguished members of the committee, thank you for 
this opportunity to testify today and provide you with my 
perspectives from the U.S. Pacific Command.
    For the past 12 months, I have had the great honor to lead 
over 328,000 service members and 38,000 civilian employees 
along with their families.
    Our area of responsibility is diverse and extremely 
complex. Stretching from California to India, the Indo-Asia-
Pacific encompasses over half the Earth's surface and well over 
half its population.
    The region is culturally, socially, economically, and 
geopolitically diverse. The nations of the Indo-Asia-Pacific 
include 5 of our Nation's 7 treaty allies; 3 of the largest and 
7 of the 10 smallest economies; the most populated nations in 
the world, including the largest Muslim majority nation, the 
largest democracy, and the world's smallest republic.
    The Indo-Asia-Pacific is the engine that drives the global 
economy. The open accessible sea lanes throughout the Asia-
Pacific annually enjoy over $8 trillion in bilateral trade with 
one-third of the world's bulk cargo and two-thirds of the oil 
shipments sailing to and from 9 of the world's 10 largest 
economic ports which are in this part of the world.
    By any meaningful measure, the Indo-Asia-Pacific is also 
the world's most militarized region with 7 of the 10 largest 
standing armies, the world's largest and most sophisticated 
navies, and 5 of the world's declared nuclear armed nations.
    Now when taken all together, these aspects represent a 
region with a unique strategic complexity and a wide diverse 
group of challenges that can significantly stress the overall 
security environment.
    Effectively engaging in the Indo-Asia-Pacific requires a 
committed and sustained effort and USPACOM, as a military 
component of this commitment, is focused in our efforts to 
deter aggression, assure our allies and our partners and to 
prevent should our national interests be threatened.
    While the Indo-Asia-Pacific today is relatively at peace, I 
am concerned by a number of security challenges that have the 
possibility to impact the security environment.
    Examples include, climate change, where increasingly severe 
weather patterns and rising sea levels, along with inevitable 
earthquakes and tsunamis and super-typhoons, and massive 
flooding threaten today and will continue to threaten 
populations in the future in this region.
    Transnational non-straight threats will persist which 
include pandemics, pirates, terrorists, criminal organizations 
as well as drugs, human trafficking and of course, weapons of 
mass destruction.
    Historic and emerging border and territorial disputes will 
no doubt continue. Access and freedom of action in the shared 
domains of sea, air, space and cyberspace are being challenged.
    Competition for water, food and energy will grow.
    Instability on the Korean Peninsula will persist.
    The rise of China and India as global economic powers and 
their emergence as regional military powers will continue.
    And finally, recognition of the fact that no single 
organizational mechanism exists in the Indo-Asia-Pacific to 
manage relationships and when needed, to provide a framework 
for conflict resolution.
    Simply put, there is no Pacific NATO [North Atlantic Treaty 
Organization]. The U.S. joint force has been heavily tasked in 
other AORs [areas of responsibility] over the past decade and 
as a consequence, the USPACOM AOR in many key areas has been 
resource-challenged and has assumed additional risk.
    Our rebalance to the Pacific strategy has given us a new 
opportunity to begin to solve these challenges and reemphasize 
to our allies and our partners that we are a committed Pacific 
nation. It also reflects a recognition that the future 
prosperity of the U.S. will be defined largely by events and 
developments in the Indo-Asia-Pacific.
    Over the past year, the rebalance has helped focus our 
planning and our resource decisions as we work closer with our 
allies and our partners to ensure a security environment 
favorable to U.S. interests.
    However, the impacts of sequestration and the realities of 
continuing resolutions have created significant budget 
uncertainties, limited our flexibility to manage, and have the 
potential to undermine our strategic rebalance momentum, as our 
ability to operate and maintain our force is at increased risk.
    Nonetheless, USPACOM will continue to work with services to 
preserve, to the extent possible, our essential homeland 
defense and crisis response capabilities, capabilities which 
are resident in many of our forward deployed forces.
    The Pacific Ocean does not separate us from Asia; it 
connects us. We are connected by our economies, by our 
cultures, by our shared interest and by our security 
challenges. We have been resource-challenged in accepting risk 
in the Indo-Asia-Pacific region for some time. But our 
rebalance strategy is in place and we are making good progress.
    Let me assure you that USPACOM will continue to demonstrate 
to our allies, our partners and others the U.S. resolve and 
commitment to peace and security in this important part of the 
world.
    On behalf of our superb military and civilian members and 
their families who sacrifice everyday to ensure that our 
country is well defended, I would like to thank each member of 
the committee for your support.
    I look forward to your questions. Thank you, sir.
    [The prepared statement of Admiral Locklear can be found in 
the Appendix on page 74.]
    The Chairman. Thank you very much. You know, we are cutting 
from our defense budget this year. Last year our number was 
$550 billion. This year, after sequestration, it is $501 
billion. The OCO [Overseas Contingency Operations] number last 
year was $122 billion; this year, after sequestration, $88.5 
billion.
    So we are cutting, this year, out of our national security, 
our defense budget, over $80 billion. Very significant. I have 
an article before me that says that China, this year, plans to 
raise its defense budget by 10.7 percent, or $115.7 billion.
    They are raising theirs $115, we are cutting ours over $80. 
I think that is something that all of us on this committee need 
to pay attention to, need to understand the significance of.
    We will have the opportunity this week in the House to vote 
for a continuing resolution which will fund the government 
through the end of this fiscal year, 9/30. Wrapped in that 
budget, or in that CR [continuing resolution], will be a 
defense appropriations bill.
    Now this committee last year completed our National Defense 
Authorization Act. We went through the process. We held the 
hearings such as we are holding here today. We passed a bill 
through these subcommittees, through this full committee and in 
the House on the floor with a very good vote.
    The Senate, while it took them a little longer, did get 
their work done and did pass their bill in December of last 
year. We conferenced. We had a very short time to do it, but we 
came out with a bill. We passed it. It was signed by the 
President of the United States.
    That bill has no effect unless the appropriations bill is 
passed. They, the appropriators, have also done their work. 
They held their hearings. They passed it on the floor, passed 
in the Senate. They have worked jointly to do this. They 
followed regular order. And because of that, it is part of this 
CR. They are the only committee that has done that.
    I think that we could probably find reasons to vote against 
that bill, but I think every member of this committee should 
understand the importance of getting that passed and the 
benefit it will have to at least take away some of the sting of 
sequestration on our military by giving them the authority to 
spend money on more important areas than they are having to do 
if they become just part of a CR without the appropriation 
bill.
    So I urge all members of this committee to really look at 
that and understand the responsibility we have in protecting 
the national defense of this Nation.
    Now General Kehler, Admiral Locklear, the sequestration 
deadline passed on Friday. You are still operating, at this 
point, under a continuing resolution. How are the current 
fiscal restraints that you are operating under, how do they 
impact your plan to execute your missions today? Six months 
from now? A year from now?
    I would like you to please be specific. Has your ability to 
respond to a crisis been impacted? And what are not you able to 
do today or any longer because of these conditions you are 
operating under?
    General.
    General Kehler. Mr. Chairman, I would make a couple of set-
up points here. First, because of the nature of the combatant 
commands, I think that the immediate impacts of----
    The Chairman. General, could you move that mic just a 
little closer?
    General Kehler. Yes, sir. Is that better?
    The Chairman. Thank you.
    General Kehler. Sir, because the nature of the impact will 
be different from command to command, let me just describe 
that. And I think it is important that the committee knows 
this, I think it is important that any potential adversaries 
know this.
    Strategic Command is capable of performing its full range 
of missions today. We are 4 days, I guess, past the time that 
sequestration began. And as I sit here and look for the coming 
months, I do not see a dramatic impact on our ability to 
accomplish our mission.
    But as I said in my opening remarks, what will happen is 
that as the service chiefs have struggled with how to apply 
these various financial rules that they have been given, they 
have had to go to some places to take cuts that eventually are 
going to impact us. Flying hours, for example.
    In the near term, what the Air Force is going to try to do 
is take their flying hours in the bomber force, for example, in 
such a way as to make sure that our crews that are nuclear-
certified will remain so for as long as possible. But 
eventually, those--if unaddressed, those issues will persist. 
And then those impacts will begin to be felt in Strategic 
Command.
    There are other impacts that are--we have seen out of 
potential moves that the services have had to make. We could 
see eventually impact of the reduction of maintenance, or the 
deferral of maintenance, for example. Eventually that will 
impact the forces that are assigned to Strategic Command.
    Again, I think the services are trying as best they can 
within the rules that they have, to give us, in some of these 
critical places, some priority treatment. If, in fact, we have 
to continue with some curtailment of operations of sensors, for 
example, eventually that will impact space situational 
awareness.
    Those are the kind of things that I can't sit here today, 
Mr. Chairman, and say, ``Today we have--we have had a dramatic 
impact on either our readiness or our ability to perform our 
missions.'' I would be mischaracterizing where we stand today.
    But I don't want to understate the impact of what is coming 
to us. And I believe that other commands would probably have a 
different assessment of where they stand today. I am concerned 
that as time passes that this, as I say, the best way that I 
can describe this is it is an avalanche. It begins very small, 
in Strategic Command, and then it begins to cascade as the 
momentum builds.
    Those are the issues that we are most concerned about, 
because we can't see clearly yet the way forward. We know that 
some of these impacts are coming. I can't tell you exactly what 
those are going to be or when. The other issue that I think is 
a big one for me, personally, is the issue of the impact that 
all of the uncertainty is having on our members, and in 
particular the civilians, as I said. I think that they are 
being asked to sacrifice much here and I think we need to be 
mindful of that.
    We have an intern program that one of my predecessors 
started where we go to universities and we try to bring interns 
in with the hopes that they will come to government service. We 
have been--we have had some success with this, especially in 
those technical areas that STRATCOM is reliant on, we have had 
a number of those new government employees, college graduates, 
come to their supervisors in the last several months and 
question whether this is a future for them.
    So I don't want to overstate that either, but I don't want 
to understate. I think there is a human dimension to this that 
we need to be mindful of and I can't characterize that as an 
impact on readiness, but we have--our people are concerned 
about all of this.
    The final thing that I would say is I can't characterize 
either the potential impact on investment because those 
decisions haven't been made. Again, the services are struggling 
with those kinds of impacts. What I can say, I believe, from 
STRATCOM's portfolio of capabilities is I am certain that 
everything that is in STRATCOM's portfolio will be on the table 
when we make those decisions.
    So I would like to be able to be more crisp today with 
specifics of the impact. I can't give you that. I just know 
that the readiness impacts are coming, if unaddressed. And I 
know that there is an impact in the way our people are--the 
discomfort level with our people. I can't tell you yet what is 
happening with investment because I just don't know what the 
Department is going to decide yet in terms of reprioritizing 
and all the things that go with that. If that helps you, sir.
    The Chairman. We understand that the chiefs had a year to 
work on the $487 billion and to really plan where they would 
cut and the sequestration they were basically ordered not to 
plan. So we understand the--how those decisions haven't been 
made yet and it is going to take some time to do that.
    And we understand how each combatant commander has 
different--it will impact them differently. So when we get 
through this whole process of listening to all of you, then we 
will have a little bit better picture ourselves as we move 
forward into the subcommittee hearings and put our bill 
together.
    Admiral, I don't want you to telegraph any weaknesses that 
we may have. So if you can understand that you know how to 
answer the question so that we get a general understanding, 
without knowing specifics, that we can discuss in open session 
like this.
    Admiral Locklear. Yes, sir. Well, thank you.
    First, I think the Pacific Ocean is the largest object in 
the world. It is the largest thing on the Earth. You could take 
every landmass in the world and you could put them all together 
and fit them in the Pacific Ocean and still have room for an 
African continent and a North American continent.
    And I think sometimes at least people here in my hometown, 
they don't recognize that. They don't recognize the vast 
distances. They don't see the impacts of American interest 
here. It doesn't--it is not--it doesn't show up. They don't 
understand that all the goods and services, many of them come 
across this vast ocean through other economies that make our 
economy vibrant.
    So one of the things that has enabled that over the last 70 
years has been the presence of U.S. military forces in this 
part of the world that have provided really quite a remarkable 
presence and security that allowed the rise of these large 
nations, large democracies, in a peaceful way that has fueled 
our own economy and helped our quality of life, and will 
continue to do so for the next--for the future.
    So with that--in that context, there is three things that I 
do as a combatant commander that have to look the impacts of 
resources. Because I am the end user from the services as they 
push things out to me in this vast region.
    The first thing I would have to do is what is the impact on 
our ability to deter? And there are significant deterrence 
issues here. Today we are deterring a North Korea that you see 
through all the rhetoric and all the provocations that have 
occurred that this is not getting better. We are deterring to 
ensure that a security environment is consistent through the 
coming decades and not one that leads us to any kind of 
conflict in this very militarized part of the world.
    The second thing I do is I assure. Now we only have seven 
allies in the world--seven treaty allies. Five of them are in 
my AOR. The other two are NATO and I think the Rio--Rio [1947 
Inter-american Treaty of Reciprocal Assistance] is the other 
one. So they are--really the five nations that are our allies 
are here. And we have--our relationship with Thailand goes back 
180 years. It is the first ally we had.
    And these alliances have underpinned our security and our 
security strategy and our economic strategy I think in this 
part of the world for many decades. And so assuring those 
alliances that the U.S. is committed to our commitment to the 
alliance and that they are committed to us as well takes 
presence. It takes time. It takes effort. It takes exercising. 
It takes relationship capacity building, those types of things.
    And then the third thing that I worry most about is 
preventing. So let's say that all the good things we do to try 
to ensure the security environment remain stable, yet somehow 
that fails. I am accountable to you and to the American people 
and to the President to be able to say that I can defend U.S. 
citizens and U.S. interests in my half of the world.
    It is 52 percent of the world in the PACOM AOR, so we rely 
very heavily on forward deployed forces, forward station 
forces, the ability to rotate forces effectively that are well-
trained into the theater in a way that allows me to accomplish 
those three things.
    So what are the near-term impacts? Well first, we will 
start to see the readiness accounts because that is the only 
place the service chiefs can go, really the only place they 
have the flexibility to find near-term savings, so they will 
take that out of things like flying hour programs.
    So the airplanes that I need to put on the carriers that 
need to come forward or that go into my fighter rotations in 
theater will not be trained and may not come. We will not 
deploy ships. We were just sitting on my front porch in Hawaii 
2 days ago and there was a ship sitting there that was supposed 
to deploy early--the first day of this month and it hasn't 
gone.
    And it hasn't gone because the operating dollars to send it 
forward to do the three things that I just said for you to do 
will not be available. Similarly, you could apply that across 
all aspects of whether my exercise programs have been 
truncated.
    Just in my headquarters alone, one of the things, because I 
am in Hawaii I have about a, you know, a staff that is required 
to be out and active in 35 nations to do the things that we 
have been asked to do. My travel budget, I immediately cut it 
by 50 percent. So we are 50 percent effective today just 
because we had to cut that. And that is a small thing, but it 
gives you an indication of kind of the near-term impacts.
    The long term, well just as General Kehler said, it is 
going to be like an avalanche. It is going to compound. You 
know, the bad decision we make today just ends up in three or 
four more down the road because of the way our force is 
structured, because of the way we deploy our force from our 
homeland. And pulling those dollars out will ultimately result 
in less capacity for my AOR.
    It also will ultimately, if allowed to, undermine the 
rebalance. Now the rebalance strategy, I don't think--I have 
never found anybody who disagreed with it. It was clear that 
the American people looked at it, I looked at it, I think all 
of you all did, and said, you know, for the next century for 
our children and our grandchildren, we have to get it right in 
the Asia-Pacific.
    And that after several decades of war in the Middle East 
that we--where we have maybe prioritized our efforts there, and 
we have to look more closely at the Asia-Pacific. And a big 
piece of that is how we insure and put our military in a 
footing in the Indo-Asia-Pacific that does the three things 
that I talked about.
    So we have a plan for rebalance. Since the last year when I 
saw you all a year ago, we have worked diligently to try to put 
things into place, but they are not all going to happen 
overnight. The road we are on will undermine that.
    The Chairman. Thank you. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. If I can follow up on 
that a little bit on that, Admiral, talking about our pivot to 
Asia and some of the efforts ongoing there, our relationship 
with China. The first thing, I do want to clarify.
    The chairman said that the Chinese budget had gone up 10 
percent, which is true, but I think it also sort of implied 
that it had gone up by $115 billion. It didn't go up by that 
much. The best estimates are that the Chinese defense budget is 
somewhere between $120 billion and $180 billion, not over a 
trillion.
    Granted, that is difficult to calculate, but let's round up 
and say it is $200 billion. That is still a little over $350 
billion less than we are spending this year. So from a money 
standpoint, you know, we ought to be able to compete. It is a 
matter of how we make the decisions going forward.
    Can you talk a little bit about the--as part of the Asia 
pivot, there have been troop movements in the effort--the 
ongoing effort to try to figure out our Marines on Okinawa 
working with the Japanese government, how many we are going to 
move to Guam, how many we are going to move elsewhere. What is 
the latest on that?
    It has sort of been stalled by the fact that the Japanese, 
you know, want us to move from Futenma, but they have yet to 
actually put in place the other spot on Okinawa where we are 
supposed to move to, and that has sort of been making it 
difficult to make those decisions. So an update on that, and 
then also how are things going in Australia with our rotational 
placement there and how the Australian government and the 
Australian people are reacting to that.
    And then just a little bit more about the importance of 
partnership building as part of our strategy, that it is not 
just a matter of us having, you know, this huge enormous 
presence, but it is a matter of building allies in the Asian 
theater that we can work with. How is that going? So I guess 
there are three pieces to that. One, our troop movements. Two, 
Australia in particular. And then three, other allies and how 
that is developing.
    Admiral Locklear. Let me start by talking about troop 
movements before I talk about Okinawa and Futenma specifically.
    As an obvious signal of the rebalance already, I think I 
would like to comment that the I Corps, which is a large Army 
unit up in the northwest which has been aligned to the Middle 
East for the better part of a decade, have now been realigned 
under PACOM and are under me and are now--we are planning for 
their activities in the Pacific theater here. So I think that 
is significant.
    III MEF, which has largely been out of the Pacific area for 
the last--Marine Expeditionary Force--for the last decade or so 
has now returned to the Pacific, and they are out and about and 
doing their traditional role in deterring, assuring and 
preventing in their amphibious operations. So that is a good 
sign that we are making some headway in the rebalance.
    On the issue of Okinawa, the underlying reasons that we did 
this are still sound. The agreement that we have with the 
government of Japan remains I think in a forward progress mode 
at this point in time.
    We plan--as far as the troop movements, I think you have 
been briefed on the most recent ones, but that movement would 
entail about I think just a little under 5,000 returning to 
Guam, probably about 2027--at some point in time around the 
time 2025, 2026, coming to Hawaii.
    The issue of the Futenma had been, we disconnected that 
from the troop movements so that it--because it was just 
slowing us down too much. But there is progress in that regard, 
too. I believe that the government of Japan will some time in 
the very near future pass the EIS [Environmental Impact 
Statement] statements to the Okinawans and then ask for them to 
move forward on the permits to be able to begin their 
reconstruction of the Futenma facility.
    So I think we are on track on that, and I believe that it 
is a rational--the entire thing is a very rational strategy for 
the way I see the Pacific--PACOM AOR and the proper positioning 
of our forces for the future, not necessarily for the past. I 
think it is a good step.
    Australia figures in that equation well. We have finished 
our very successful first rotation of about 250 Marines. I 
visited them about a month and a half ago in Darwin. There are 
some magnificent training ranges there. We have very fine 
partners with, and allies with, the Australians.
    The response from the, both the political and the local 
population has been very positive. They have been good 
citizens. We will do another 250 rotation this year with the 
hopes that we would expand that to about a thousand next year.
    Now keep in mind these are rotational forces that are only 
there for about 5 or 6 months out of the year. We are not 
building a base. We are not building any more U.S. bases in the 
Asia-Pacific. We are using our partnership and capacity issues 
to allow the Australians to assist us and help us here. It 
doesn't mean it is free, but it does mean that we are using 
that to a great degree.
    And I think that these Marines will now, during the 5 or 6 
months that they are not out there in Australia training, they 
will be out and about. They will provide me better flexibility 
in contingency forces that are ready to respond to anything 
from a humanitarian assistance, disaster relief, to a 
contingency somewhere else.
    Now, the importance of partnership, and partnership 
building is partnership capacity, is an important part of my 
theater campaign plan. I look out about 5 years. I look at all 
the countries, first of all the five allies, and how we 
strengthen our allies' capacity to work with us, to be able to 
be seamless with us in our operations, and it varies among the 
allies about their maturity of that. And so we have to take 
that into consideration. But certainly my hope is that they are 
able to continue to do more, and that they are able to continue 
to contribute more across all spectrums of potential crisis, 
whether it is from a humanitarian disaster relief, or whether 
it is all the way up to a higher end contingency.
    We are looking for--we continue to look for partnerships 
beyond our alliances. As you know, we are looking for a long-
term strategic partnership with India. So I have been to India 
and we begin this dialogue. India has a tremendous capability 
to be a security guarantor in their part of the world, in the 
Indian Ocean, and we welcome that. And we look for 
opportunities to--so that we maintain our interoperability. And 
a lot of these things require the types of things in our budget 
that sometime might look like, well you can do without that. 
But, you know an exercise with a potential partner that allows 
us to improve and help them improve their capacity, becomes 
important. And things like CRs and sequestrations kill those 
first.
    Mr. Smith. I think those pieces are going to be critical 
going forward. We are going to need as many partners--and it is 
really a more effective way to operate. I know different 
theater, but in Africa we had a lot of success with partnership 
capacity, which has helped us deal with Somalia and Yemen in a 
much less costly, and I think more effective manner.
    Thank you, Admiral, I appreciate the time.
    I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman, and thank you both 
for being here today. I just want to follow up on this question 
about a CR versus appropriation bill, because we are going to 
have an opportunity later this week to vote on a Defense MILCON 
[Military Construction] appropriation bill, and within just 
very limited time that I have, I would appreciate each of you 
describing generally how big a difference it makes, whether you 
have the same amount of money to operate under a CR for the 
rest of the fiscal year, or the same amount of money to operate 
under a regular appropriation bill?
    Is it a big deal to you? Is it medium? Is it not that much 
difference at all? General Kehler.
    General Kehler. Congressman it is a big deal to us. In 
particular I think number one, it helps put certainty back into 
the process. It converts uncertainty to certainty. The second 
thing is that of course it establishes, or at least we would 
hope that it establishes a different baseline instead of 
continuing to baseline fiscal 2012 numbers, it would baseline a 
different number in fiscal year 2013. And of course, I think 
that that would be very helpful for us in my small O&M 
[operations and maintenance] piece of the pie, it would also--I 
am--I would believe anyway it would help the service chiefs 
quite a bit.
    Mr. Thornberry. Okay. Admiral.
    Admiral Locklear. Yes, sir, it is a big deal. I was the 
programmer for the Navy in a previous job, so I had a chance to 
see how budgets were built, and POM [Program Objective 
Memorandum] processes work, and how all that happened. And on 
the surface it sounds like, well what are you complaining 
about, you have all the same money you had last year, so why 
don't you just get on with it? But money is not spent that way, 
it is not executed that way. It is executed through, as you 
know through what y'all pass to us as a budget that has certain 
assumptions in it, and changes.
    So when you look at a 2012 budget compared to a 2013 
budget, there are some fundamental assumptions that the service 
chiefs had to make changes about, as they move forward to 
rebalance, to change the nature of their force structure. And 
those things can't be accomplished. It is--they end up, I think 
in the case of the Navy this year, they end up carrying excess 
bills on things that they thought they were going to be able to 
do in 2013, that you haven't allowed them to do because there 
hasn't been enough appropriation to allow it.
    And so there are unintended large bills they have to 
contend with that, if they had perfect fungibility on their 
budget, perfect discretion, then they--we--they would be able 
to solve it, or maybe solve part of it, but they don't have 
that and I wouldn't advocate that they did, but I think it is 
what makes a difference.
    Mr. Thornberry. Well, I--like the chairman, I hope that we 
can do that. Because I am afraid we have got a limited window 
to get a Defense appropriation bill done, or else we are going 
to all be living under a CR for the rest of the year, and which 
would not be good.
    General Kehler, let me change the subject right quick and 
just ask you this question, which has always perplexed me. All 
of this talk about nuclear weapons, and we have got charts our 
staff has provided with the treaty limits and so forth, but 
nothing ever takes into account the tactical weapons.
    As you do military planning, as you try to assess the 
effects of a blast from one nuclear weapon versus another, is 
there really a difference between a tactical nuclear weapon and 
a strategic nuclear weapon as far as the importance that you 
have to place on it in terms of military consequences? Or is it 
more a political difference?
    General Kehler. Congressman, it is more a political 
difference in what you call it, really. It is like calling a 
platform strategic, or tactical. It is really about effect. It 
is not about the platform, and it is not about the weapon. In 
most cases, and certainly if you are on the receiving end, I 
don't think you notice much difference from a nuclear weapon 
that somebody says is a tactical weapon, or one that somebody 
says is a strategic weapon. I think that we have used that as 
an accounting method over the years for arms control purposes, 
and I understand why we have done that.
    We used to make a bigger distinction between strategic and 
tactical nuclear things, different decision processes, et 
cetera. But I think as a practical matter as we go forward, 
there is probably less utility in describing the weapons that 
way. In fact the nuclear posture review laid out some of that, 
and with the suggestion that it is probably time as we go back 
and chat again with the Russians, for us to address what we 
have called historically nonstrategic, or tactical nuclear 
weapons. I think that is a prudent thing for us to do, and I 
think it is probably time for us to do it.
    Mr. Thornberry. Great, that is helpful to me. Thank you. 
Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you, all of you for being here. I think you have 
tried to clarify the shift or the rebalancing to the Pacific as 
best you can, but I recently was at a conference, and there was 
really quite a bit of skepticism about that, and the fact that 
this was really about containing China. Could you comment on 
that?
    Admiral Locklear. Yes, Congressman. I get the same question 
throughout my AOR, in fact over half the world, different 
countries I get almost the same question.
    First the rebalance is a strategy of collaboration, not one 
of containment. If we wanted to contain any country, we would 
kind of know how to do that, and we wouldn't be doing what we 
are doing now. Now, to that degree I can't tell you whether 
another country feels contained by our activities; that is in 
the eyes of the beholder. But in the case of China, as I have 
communicated to them when they have asked me this as well, I 
said first of all you have to recognize that the U.S. is a 
Pacific nation.
    We have lots of national interests in this part of the 
world. We are going to stay here. We are here with our allies. 
We are concerned about a security environment that protects our 
interests. We recognize that China is on the rise, both 
economically and as a regional power. And we think that we can 
accommodate China into those--into the economic world, as well 
as the security world, and that they have the opportunity to 
come in as a net provider of security and that we are happy to 
allow that to happen, and we will actually facilitate them 
coming in if necessary.
    But they, as all others do, have choices that have to be 
made, and we are just hopeful that those choices will be ones 
that bring them in, in a productive way.
    Mrs. Davis. Have any of our allies in the region expressed 
some concern that they might have to choose between being their 
friends in the region? If in fact they perceive it that way?
    Admiral Locklear. Right, well I think there are two 
concerns. One is, they all express that the last thing they 
want to see happen is for the U.S. and China to have an 
adversarial relationship. It is not in our best interest, not 
in China's best interest, and it is certainly not in theirs. 
And so they are pretty emphatic about that. The second thing is 
as you just said, they don't want to have to choose. I don't 
see a reason for them to have to choose at this point in time, 
assuming that we all make the choice for peace and prosperity 
in a security environment that can ensure that.
    Mrs. Davis. If I could just go back to a second to the 
discussion that we have had about building capacity. One of the 
things that we have tried to do, and I know you all have been 
actively involved in more of a whole of government approach, 
and yet as we see with budget cuts, and constraints that we 
have, that that is certainly going to affect other agencies, 
other government agencies that are part of this, as well as 
other entities, private and certainly our allies in the region.
    What role then do you play? Will we be playing to enable 
that relationship to continue, given the budget constraints 
that probably will be falling on them tougher than yours?
    Admiral Locklear. Well, I think for some time, the benefit 
of the Pacific Command is that they have had a view, not just 
at the military side, but many of the other aspects of whole of 
government, just because of the size of the region and how hard 
it is to get around. I mean if you take a look at the--just the 
number of your members that actually make it in the Pacific, it 
is because it is so long, and so hard to get there it makes it 
more difficult. So what I have done in my headquarters is I 
have expanded in there, the outreach I have to other agencies, 
and I have them actually in--physically inside of my 
headquarters. So it allows me a conduit into the other agencies 
that I use routinely to ensure that whatever assets and things 
that I do are well synergized with other activities. So I have 
a very close relationship with our partnerships at State, with 
AID [Agency for International Development], with Energy, with 
the Drug--DEA [Drug Enforcement Agency], the FBI [Federal 
Bureau of Investigation], the CIA [Central Intelligence 
Agency], all these are present inside of my headquarters, and 
it is a team effort, not just a military one.
    Mrs. Davis. Do you see those being compromised at all in 
the coming year or so?
    Admiral Locklear. Well, as I speak to them, I think they 
are less uncertain about the impacts on them, than I am.
    Mrs. Davis. Would you recommend that they have the same 
flexibility perhaps that you all are going to be having?
    Admiral Locklear. It would be a, flexibility is always 
good, I think, particularly if you are trying to rebalance.
    Mrs. Davis. Yes. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. General and Admiral, we want to first thank you 
for your service to our country. Thank you for the weight you 
both carry on your shoulders and thank you for the 
professionalism you both display in a very unstable policy 
world.
    Chairman, I want to thank you for trying to bring some 
stability to national security and all you have done to do 
that.
    And I want to first of all set our context. We are talking 
about sequestration, cuts that will be about $42.5 billion this 
year. But we need to realize that the administration has 
already come in here and voluntarily taken 19 times that amount 
of cuts already. Because we have cut about $800 billion out of 
the last 4 years.
    So if I could put those into a sequencing and, for 
measurement purposes, put them as 20 cuts, one of those cuts 
would come from sequestration, but 19 of them would have 
already been coming from the administration.
    We fought against them because we said they do not leave us 
any bumps in the road. They don't leave us a situation, in case 
we have a downturn in the economy, or national crisis. Indeed, 
we spent more than this on relief for Hurricane Sandy.
    But we are where we are and Admiral, the question I would 
have for you is this. Our Navy is currently at 286 ships. When 
we add the cuts already made to national security with the cuts 
under sequestration, this figure could fall to the 230 range. 
Yet the demand for Navy assets only continues to increase. 
Admiral, in your best military judgment, is our Navy large 
enough today to meet the demand of both your COCOM [combatant 
command] and our international responsibilities in the coming 
decades? And what are the risks we are assuming if it is not?
    Admiral Locklear. Well, I would like to make my comments 
from that of a Joint Commander's perspective, not necessarily 
from a person who is in the Navy because I think there is 
always a perception, well, you are a Navy guy, you are going to 
say the right thing.
    The Navy and the Joint Force have consistently said that 
the U.S. Navy should be in the range of 306 to 313, somewhere 
in that number, and that number--I think you can argue about 
the each's of that number. Today we are at about 285 ships.
    But I think when you back it up into the larger context, it 
is really what is it you want your Navy to do. So there are 
always the comments, well, your Navy is larger than the 10 
largest navies in the world, so what are you worried about?
    I say, if you ever put that in the context of having to 
defend your home shores with your Navy, whether it is off of 
Long Beach or whether it is off of Norfolk, that argument is 
pretty good.
    But if you look at the world as a global common and you as 
a world leader in both economics, in social and military, and 
that you want to be able to influence what happens in that 
global common to the benefit of the American people and to 
secure our national interests there, then you start talking 
about size matters and the numbers matter. Because, you know, 
only one ship can be at one place at one time.
    And they are much more powerful ships, they are, they are 
really great ships we have today. But when you are talking 
about 285 and what we have seen happen just in the last decade 
with the pressure that is from the Middle East, the Persian 
Gulf, to what is happening off the Horn of Africa for anti-
piracy, to my requirement to have to deter, assure, and 
prevent, in a very--when an area is becoming more complex, the 
numbers that we have in the Navy today are too small because my 
requirements are not being satisfied by the Navy today.
    So in that context, it is probably--285 is not meeting the 
global demand for the world we find ourselves in today.
    Mr. Forbes. Admiral, can you give us a picture of--let's 
just take our most important capabilities in Asia-Pacific is 
probably going to be our attack submarines.
    Can you give us a picture kind of where we are going to 
line up number-wise in the next decade between the number of 
submarines the Chinese will have versus ours in the Pacific 
area? If we stay on the course we are on today.
    Admiral Locklear. Yes. Well, I won't give you exact 
numbers, I will just give you relative. I think there are well 
over 300 very quiet or extremely quiet diesel submarines 
globally today. Some are by our--owned by our friends and 
allies, others by not.
    And then there is another subset--another set of those that 
are nuclear capable ships that have much longer ranges, and 
that type of thing. The growth of the Chinese submarine force 
is a little bit puzzling to me in both its size and its 
sophistication. I believe the predictions are it is going to 
grow to about 70, high 70s or 80--in the numbers of 80.
    That is the Chinese decision on how big they want their 
submarine community to grow and I don't--and I think as they 
get more global, that they are going to have to build a 
military that can be more global and protect their interests as 
well.
    But that number of submarines in a very basically 
constricted space, it causes a little bit of questions.
    Now to compare their submarines to ours is a little bit of 
an apples and oranges comparison, but the numbers in the 
Pacific will be, of submarines that we have, day-to-day to 
operate, will be less than that.
    Mr. Forbes. How many?
    Admiral Locklear. I would just rather answer that off-line 
to give you the exact number.
    Mr. Forbes. That is great. Thank you.
    General Kehler. Congressman, may I just pitch into this?
    Mr. Forbes. Please do.
    General Kehler. As a Joint Commander, we ask our Navy to do 
something else that is critically important. Fourteen of those 
ships are Trident ballistic missile submarines that form the 
most survivable part of our strategic deterrent.
    And when we talk about deterrence and assurance, a great 
deal of what we must be mindful of is the extended deterrence 
that provides the assurance for our allies and our partners 
around the world.
    I think, as we go forward, we need to be very mindful that 
those Trident submarines are going to reach the end of their 
service life at some point in time and part of the 
recapitalization that we are going to need to proceed with, 
even in tough financial times, will be the recapitalization of 
that ballistic missile submarine force.
    Mr. Forbes. Mr. Chairman, thank you for your patience.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I want to discuss 
briefly some of the flexibility issue. This issue came up last 
week when we had a hearing with the Federal Aviation 
Administration [FAA]. And the majority of the House and the 
majority of the Senate voted for the situation we are in today, 
sequestration. We are trying to find a way out of it now.
    But to underline the inflexibility of sequestration, the 
question came up at the FAA hearing based on the concept that a 
lot of people just think there is a line item for waste, fraud 
and abuse in every agency, including in STRATCOM and including 
in PACOM, including every agency in the Federal Government.
    And FAA has to cut about $627 million out. But under 
sequestration, even if there is a line item of waste, fraud and 
abuse and it was $627 million, they could still only cut 8 to 
10 percent of that because of the strict rules of 
sequestration.
    And that just underscores the inflexibility of the 
inflexibility of sequestration and underscores the importance, 
at least for step one, of providing some flexibility.
    But I would also argue that that flexibility should apply 
to all agencies and not just to the Department of Defense. I 
have got folks who are making choices about housing vouchers in 
nonprofit housing authorities in my district. I have got folks 
who are making decisions about not delivering meals to seniors 
who are shut-ins in their homes through the Meals on Wheels 
program.
    At least having some flexibility in other agencies, I mean, 
if it is good enough for the goose, it is good enough for the 
gander, in my view.
    But I want to move, though, to another set of issues with 
regards to that. And General Kehler, you mentioned it more so 
in your oral testimony, and Admiral Locklear, you mentioned 
more of it in your written testimony. And that is the impact of 
the pay freeze that impacts your civilian employees, as well as 
the furloughs.
    Can both of you, very briefly, a minute each, with General 
Kehler first and Admiral Locklear second, can you discuss in a 
little more detail the impact of the potential furlough and 
current pay freeze, as well as for the proposed-pay freeze, is 
having on your civilian employees and their ability to do their 
job?
    General Kehler. Sir, I would add to that a hiring freeze, 
as well, which we have had for quite some time. And also, a 
reduction. While we went through a contractor to civilian 
conversion, then we went through some civilian reductions over 
the last several years.
    And so it is a combination of all of those things that have 
been impacting our civilians.
    In terms of the furlough, though, the pay freeze and the 
furlough, I think as I said in my opening remarks, both of 
those are causing our civilians to question their future. And I 
think there is an intangible impact there. It will have a 
practical effect on some of our people. It will have an 
intangible effect on all of them. And how to characterize that, 
we have been struggling with that a little bit, certainly in my 
headquarters. We believe that in my headquarters we can stagger 
the way the civilian furlough is applied to try to minimize 
mission impact.
    But I can tell you there are some places out beyond 
STRATCOM headquarters where people sustain critical parts of 
our nuclear deterrent, for example, where it may not be 
possible to stagger the workforce furlough.
    And for example, I know that the Navy was looking at how 
they will manage civilian furloughs in the strategic warfare 
centers on the Atlantic and the Pacific that support the 
Trident ballistic missile submarines. They tell me that when 
you get right down to it, there is a critical pathway for 
sustaining those----
    Mr. Larsen. You have 10 more seconds.
    General Kehler [continuing]. There is a critical pathway 
and they may not be able to stagger furloughs. You may have to 
take block furloughs. Those are the kind of issues we are going 
to work our way through.
    Mr. Larsen. Thank you.
    Admiral Locklear.
    Admiral Locklear. Well, first, I think what we are 
potentially going to do with our civilians in this is somewhat 
tragic.
    I think, over time, in an All-Volunteer Force, the line 
between our civil servants who serve in our Defense Department 
and our military have blurred to some degree, and we rely very, 
very heavily on these civil servants to do the type of things 
that you might historically have considered as kind of core 
military.
    But let me just give you a couple of examples. In the State 
of Hawaii alone, there is--where my home is--there is about 
20,000 civilian employees. So on 21 April, I understand, when 
this takes effect, they will effectively take a 20 percent 
reduction in pay for the rest of this year.
    Now I don't know about everybody in this room, but I don't 
think I could take a 20 percent cut in pay in a high-cost area 
where I have children in school and I have mortgages in a high-
cost living area. And I don't know how I would survive it. And 
yet we are going to ask them to do it. And chances are, many of 
them will, many of them may not.
    In the area of things it will have trickle-down effects. 
For instance in our DODEA [Department of Defense Education 
Activity] schools which educate all of my children--our 
children that are overseas. Most of them are civilians--
government civilians so--so that means that one-fifth of the 
teachers won't be teaching on any given day in those schools 
which are already probably pressurized to be as efficient as 
possible.
    Our hospital systems overseas are mostly government 
employees. So we are going to have a decrease in the hospital 
care immediately. So those are--I could go--I could just keep 
going on but that is the tip of the iceberg.
    Thank you.
    The Chairman. The time has expired.
    Mr. Larsen. Thank you very much, and I would just note that 
that same principle applies to a lot of other agencies outside 
the Department of Defense and services provided to people 
around this country.
    Thank you.
    The Chairman. There is no question that this is going to 
spread pain across the whole Federal Government of employees, 
and I wish I had the ability to bring an appropriation bill for 
everything, but I don't think we should let the perfect be the 
enemy of the good, the better. And we do have the opportunity 
to vote on an appropriation bill which has gone through the 
process, unfortunate that the--we never got a budget out of the 
Senate and we have had to operate under these kind of 
conditions. But we should really, again, be very mindful of 
this vote this week.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Am I the good, the better or the perfect or just the enemy?
    The Chairman. You are the perfect, you now have 4 minutes 
and 50 seconds left.
    Mr. Bishop. There is always a penalty attached.
    General Kehler, if I could ask you what I think are about 
six pretty basic questions if I could please.
    In your opinion, do you--would you say that or believe that 
further nuclear reduction should be bilateral and verifiable 
rather than unilateral? Is there a significant advantage in 
that?
    General Kehler. Sir, if we are going to go beyond the New 
START [Strategic Arms Reduction Treaty] levels of 1,550 then I 
think that should be bilateral.
    Mr. Bishop. Are you aware of any precedent that this Nation 
has ever undertaken to negotiate a bilateral and verifiable 
agreement that did not take the form of a treaty?
    And if you need time to look that up or need to be more 
comfortable, I can do that.
    General Kehler. Well, I would like to take that for the 
record. And why I am hesitating, I am not sure the agreement 
that was made between the United States and Russia with 
President Bush to go to 1,800 to 2,200 weapons. I just don't 
recall--I will have to take that for the record, sir.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Bishop. Okay.
    It--I mean why do we need to have things that are 
verifiable? Is, I mean, is verifiable there simply because we 
need to know if there is cheating involved?
    General Kehler. It, certainly, there is an element of 
verification that gets to whether parties are cheating. I think 
that is a piece of it.
    Another piece, I think, is, there is a transparency piece 
of verification. There are certainly an information exchange 
piece of verification, there are insights that are all gained 
from verification. But I think at its core, verification is 
about ensuring that we can place our trust in a country that we 
have entered an agreement with.
    Mr. Bishop. Is there kind of, is there some kind of 
threshold, or is cheating more military significant at a lower 
force level?
    General Kehler. I think that--I get the question, sir, 
sometimes about cheating. I think there are two answers from my 
perspective about cheating.
    Number one, I think any country that intentionally cheats, 
I think there is a significant concern about that. But then the 
second question is, does the cheating have a military effect. I 
think that is a different question and the answer is it 
depends.
    Mr. Bishop. So, if a country were to break a key obligation 
under an arms control commitment, you know, like say one of the 
central limits of the New START Treaty, is that militarily 
significant?
    General Kehler. It can be, yes sir.
    Mr. Bishop. Is there a threshold level about that? I mean 
would ten missiles be significant, 50? How many would be 
required to make it significant?
    General Kehler. Well, I think we would have to take a hard 
look at the circumstances. I, so what I would say is, I mean 
you could take this to an extreme. You could say if 1,550 
accountable warheads is what the treaty says and someone has 
1,551, is that militarily significant? And I--we could assess 
that.
    Mr. Bishop. What if the concept was either developing or 
deploying a prohibited type of weapon?
    General Kehler. I think----
    Mr. Bishop. Is that significant?
    General Kehler. That can have military significance. It is 
hard to talk about this in the abstract, though.
    Mr. Bishop. I understand that. Thank you.
    If you reduce your nuclear force by a third, is there any 
way that that is not militarily significant?
    General Kehler. Sir, we begin the conversations about how 
many weapons we need based on strategy and national objectives. 
And so, and then we take a hard look at the threat and the 
potential threat. Ultimately, as we work our way through this, 
this turns into military tasks in the face of a threat and how 
many weapons we need is based on that.
    And so if, without some changing circumstances that go with 
this, without some changing conversation about the threat, it 
is hard, again, to look at does one-third make a difference? 
Does 10 weapons make a difference, et cetera.
    Mr. Bishop. So the key element then in that decision is the 
threat itself?
    General Kehler. I----
    Mr. Bishop. If there is no reduction in our outside threat, 
that would still be a significant impact.
    General Kehler. I think there are two, two primary drivers 
of this. One is the potential threat or the nature of the 
potential threat. The other is the national guidance and the 
strategy that we are trying, and the objectives we are trying 
to achieve. Those are both together.
    I think in the long run though, my view is that if we are 
going to engage in another conversation about reductions below 
New START, that should be done in a bilateral sense. That 
should be done with the Russians.
    Mr. Bishop. Thank you, I appreciate that.
    Mr. Chairman, I will yield back an additional two seconds, 
including the ones I took earlier.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, thank you to the 
witnesses for being here today.
    Admiral, on page nine of your testimony, you clearly I 
think wanted to convey a point of highlighting the advances in 
undersea warfare in the Asia-Pacific area, which again, Mr. 
Forbes's question sort of alluded to.
    You know, one question I hear all the time from other 
members is, you know, why do we need submarines and you know, 
aren't they Cold War relics?
    Again, your testimony again suggests that actually there is 
something changing out there and I just was wondering if you 
could sort of, you know, maybe elaborate a little bit more than 
your prior answers in terms of just how submarines fit into a 
modern security strategy.
    Admiral Locklear. Well, I would disagree with anyone who 
said that they are Cold War relics. The modern submarine force 
of today, first is globally deployable. It is a highly 
proficient force and it does things well beyond what people 
would think from a Cold War perspective.
    They are significant in intelligence and reconnaissance 
collection. They have long-range strike capability when 
necessary. They have the ability to carry Special Forces or 
special operating forces into denied areas.
    They have the ability to use the asymmetric advantage of 
stealth under the ocean and able to be a force multiplier for 
our force and our Nation that has global interests, 
particularly as you talk about maritime domain and insuring 
that we have proper access.
    You know, it is always widely reported that 95 percent of 
everything that moves on the global economy moves on the ocean. 
That is true. What is not reported is that in the last decade 
or so, that number has quadrupled. And so whether it is energy 
or whether it is the things that need to be supplied to local 
stores in our country, it is--the global economy runs on the 
oceans. And so to cede that to anyone at any time is not in our 
best interest. Submarines have a significant play in making 
sure that we have freedom of access to our national interest.
    Mr. Courtney. Great, thank you. That was a very good 
statement that I think is helpful as we again have to always 
deal with competing priorities here.
    You know, on page 28 of your testimony, you talked about 
again the need for bilateral and multilateral communication 
collaboration as you said is really what the pivot to Asia-
Pacific is really about.
    At the end of January, there was an incident in East 
China's sea where it was reported that Chinese frigate locked 
actually weapons on Japanese vessels and there is obviously now 
this sort of competing dispute about whether it really happened 
or whether it did happen. And I mean, you know, to me, that is 
sort of where, you know, the success of whether or not 
collaboration is going to work in terms of whether or not we 
have got systems here for making sure everybody is 
communicating well and understands what is going on out there.
    And you know, the last thing in the world is that we want 
an incident like this to escalate into something where we are 
going to be sort of involved. And I just wonder if you could 
sort of comment, not necessarily about what actually happened 
there, but, you know, how do we get ahead of these kinds of--
because there is a lot of congestion out there is what we are 
hearing this morning--to make sure that we don't sort of run 
into these incidents that spin out of control.
    Admiral Locklear. Well because I wasn't actually at the 
scene when it occurred, but it was reported by the Japanese 
forces, and I think subsequently denied by the Chinese.
    First that type of activity is highly escalatory; by mature 
navies, that is recognized as something that you don't do 
unless you are directed to do it and it is because of, say, a 
move towards greater hostilities.
    I believe that if it had occurred, that the Japanese would 
have been able to detect it, their navy and their military is 
sophisticated enough to be able to understand what was being 
done.
    And I have been complimentary of the Japanese command and 
control and their ability to maintain a level of calm and as 
they work through this very difficult challenging security 
issue they are dealing with. And I think that is indicative of 
the close alliance relationship we have had in building our 
navies and our militaries together in that alliance to 
understand each other. And so I think that kind of worked.
    And we have very close--I have very close communication 
with the Japanese leadership on the military side of these 
issues and I am quite comfortable with that.
    Now, on the Chinese side, we are trying to create these 
avenues. We have been successful in the last couple of years, I 
think historically successful in being able to keep our mil-to-
mil relationships going even through the periods of time when 
we disagree as a nation.
    I mean, there will be--you don't have two--a superpower and 
a rising power that won't have competition and won't have 
friction.
    The question is how do you manage that friction so that it 
is productive rather than negative. So we are opening venues. 
We have a tremendous number of high-level engagements. I have 
been to Beijing twice just in the last year to talk to my 
counterparts. I have had them come to Hawaii.
    So we are improving in our dialogue. We need--there is more 
to do--much more to do, and much more to do I think at the 
tactical level, being able to have that near-term voice-to-
voice communication, mil-to-mil with the Chinese that we quite 
frankly don't have yet but that we are working towards.
    Mr. Courtney. Thank you, Admiral.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. General Kehler, in 
your discussions with Representative Bishop, you were talking 
about threats and strategy, and basically that the process you 
were describing, it was in part determining what our 
requirements are for our nuclear deterrent.
    You are the requirement setter for our nuclear deterrent, 
and you look at yourself as a customer of our National Nuclear 
Security Administration. As you know, I am very concerned about 
our plutonium capability and have been an advocate for the 
completion of the CMRR [Chemistry and Metallurgy Research 
Replacement] that was part of the administration's promises in 
the New START process.
    We have heard of the proposal, as CMRR has been delayed, of 
an interim strategy, perhaps a modular approach. And we are 
very concerned about, you know, lack of details with what those 
interim strategies might be for satisfying our need for 
plutonium capability and what the modular approach might be.
    So I am assuming that you have the details of those 
proposals, and I have a series of questions about them. You 
know, one, do you have the details? And two, if you had to pick 
between what you are hearing about the modular approach and the 
interim strategy versus CMRR, which would you pick if you were 
only going to get one?
    General Kehler. Well, let me start with we have spent the 
last year--I think as you know, when we came in front of your 
committee last year, I expressed some grave concerns about the 
plan that we had for the nuclear enterprise, the weapons 
complex and the weapons life extensions and other activities 
themselves. Because as I said at the time, the plan didn't 
close, as you well know.
    We took the last year and we sat down as the Nuclear 
Weapons Council and we worked our way with the National Nuclear 
Security Administration through a strategic approach, through 
an implementation plan. We associated budget with that, and all 
of that is pending with the fiscal year 2014 budget release, 
which I can't describe today.
    What I don't know is what is going to happen to it now. 
Because I am far more comfortable with the approach that I 
believe that we have hammered out over the last year. I believe 
that the plan does close. It is not without risk, but I don't 
know what is going to happen to it given the fiscal uncertainty 
and fiscal year 2014 in particular.
    An element of that plan deals with the plutonium needs that 
we are going to have. And again, if you are asking me if I pick 
between one thing or the other, I think the practical matter is 
that one way or another, we are going to need to have an 
interim strategy for plutonium. Whatever we decide to do in the 
long term, we are going to need to do something on an interim 
basis.
    Mr. Turner. So you--are you saying you have sufficient 
enough details on the interim strategy, which perhaps includes 
a modular approach, to endorse that strategy with the Nuclear 
Weapons Council?
    General Kehler. Well, I think--again, I need to be a little 
careful here because the entire plan hasn't been released. But 
I have been comfortable with the proposal that we have 
discussed regarding an interim plutonium strategy. Now that is 
different than what do you do in the longer term----
    Mr. Turner. Well, and that is my next question actually. So 
let me frame that, which will be part of what your answer is. 
That is, there is the issue of, you know, which would you want, 
CMRR or the interim strategy, the pick. And that is the long-
term strategy.
    But the second aspect of that--so there is two components. 
One, you know, do you think we could maintain in interim 
strategy in perpetuity versus the investment required for CMRR? 
But the second aspect is would you ever consider undertaking 
reductions in our hedge based upon just the interim strategy 
versus the long-term strategy of the CMRR?
    General Kehler. Well, let me go back to the interim 
strategy. I--again, I don't think we have a choice. I think 
that we have to do some kind of an interim strategy. The 
question then becomes, okay, what do we do next? And I think 
that that isn't quite solid in my mind yet, and I think that is 
going to be one of the open questions as we come forward. 
Again, assuming--I don't know what to assume about the 2014 
budget at this point in time to tell you the absolute truth.
    But having said that, I believe you have to do some kind of 
an interim strategy. I believe that that gets us through the 
time period that we are talking about. Certainly in the long 
run we would prefer to see a more permanent solution to the 
plutonium needs. And I think that will also--I think there are 
a number of steps that impact a hedge strategy. That is one of 
them.
    Mr. Turner. Great. Because you would agree that our ability 
to have a long-term ability for production, in a production 
infrastructure should be a basis for us considering whether or 
not we reduce any of our hedge in case there isn't an issue 
with the weapons that we have.
    General Kehler. Sir, I think that is one consideration. I 
don't think that is the only consideration. And I think that 
there are some scenarios that you can unfold where an interim 
strategy will serve us even under some technical issues. So I--
but I think for the United States of America in the long term 
that we want a permanent solution to the nuclear enterprise 
that includes a permanent solution to the plutonium.
    Mr. Turner. I appreciate that. I am surprised, General, by 
your last answer.
    The Chairman. Thank you. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Thank you, General. And 
of course aloha, Admiral. Admiral, in reviewing your testimony, 
and this is a hearing on the posture of both of your commands, 
I did not see a real specific reference to PMRF [Pacific 
Missile Range Facility]. And I wanted to give both of you the 
opportunity to testify about the importance of PMRF in both of 
your postures. Admiral.
    Admiral Locklear. Aloha.
    Ms. Hanabusa. Aloha.
    Admiral Locklear. Well, I mean, I think that, for those of 
you who visit Hawaii and go to Kauai to see PMRF, I think it 
becomes readily apparent the importance of it, particularly as 
we pursue our technologies and our research and development and 
are able to demonstrate in an airspace our ability to do 
ballistic missile defense, to develop those technologies which 
are critical to our own homeland defense.
    One of the problems we have is finding a range in places 
where you can actually have the airspace and the outer space, 
if you call it, to be able to fly targets and to be able to do 
them. And PMRF is a relatively modest organization, but they 
carry a lot of weight in this. And I think you would see that 
any future strategy we have towards our ballistic missile 
defense will have a--PMRF will play a central role in being 
able to test and evaluate those systems.
    Ms. Hanabusa. Thank you. General, would you like to add to 
that?
    General Kehler. Congresswoman, I would just say that I 
completely agree, and I would add one other point, although it 
isn't completely related to Hawaii. The importance of the 
facilities on Kwajalein farther to the south and west are 
equally important for those same reasons.
    That is where we--the entire Pacific Range Complex, that 
includes PMRF, it includes Kwajalein, it includes Vandenberg at 
the eastern end of it, it includes other assets, is critically 
important for us for missile defense purposes, for our ability 
to continue to demonstrate the effectiveness of the nuclear 
deterrent and for lots of other reasons, development of radar 
and other things. So all of those are important places.
    Ms. Hanabusa. Thank you. And for those that may not 
understand PMRF, it is the Pacific Missile Range Facility. 
Admiral, I think the chair of the subcommittee on seapower sort 
of got into it, and that is how many ships do you need?
    We had a hearing earlier last week I believe where former 
SECNAV [Secretary of the Navy] Lehman testified, as well as 
Admiral Roughead also testified, and we had a range of numbers. 
Of course, we all know that Admiral--I mean the Secretary 
Lehman is known for his 600 fleet under President Reagan, but 
he says 346 is his number. And Admiral Roughead said 325 to 
345.
    So when I asked him, well, what does that mean, they both 
kind of said it depends on our needs and that we are to 
understand that when we are talking about a fleet that there 
are support vessels and everything else associated with it.
    If you were to pick a number that you believe would be 
necessary, what would that number be, and also what would the 
number be for you to accomplish what you feel is necessary for 
what I call your DAP [Defense Acquisition Policy] in the 
Pacific?
    Admiral Locklear. Well, you can see you get competing 
numbers from almost any source you talk to. I would start by 
saying that the number we have today is insufficient. So from 
that--start from that perspective.
    But if you look at I think at Navy's and its, and other 
aspects of our force, it really starts by how do you define 
your--what it is you want to do. What is your national 
aspirations around the globe? And from a maritime perspective, 
the globe is actually getting not physically bigger but it is 
actually getting more challenges. When I was a young junior 
officer, I never contemplated operating in the Horn of Africa. 
I probably didn't know where it was because we just didn't go 
there.
    I would not contemplate--wouldn't have contemplated that 
there was a potential for Arctic operations in my lifetime, but 
you know, that is going to probably happen in the next 
generation of naval officers that have to go and deal with 
this. I wouldn't have anticipated the rise of some of the 
militaries that we are seeing and the lack of transparency in 
some of them and what that would mean.
    So, you know, the debate about how big the Navy is has been 
one that is historic in our Nation, is really about how do we 
define ourselves. And if we think we are going to be a global 
maritime power and a maritime domain that is increasingly 
important, then we have to build a Navy that can stay out there 
and we can sustain it.
    The one we have today I think is challenged to do that. And 
the exact numbers, like I said, it depends on what you want to 
do and where you want to do it at and what type of ships you 
want to do it with. But as you can see, just in my lifetime we 
have grown from a--basically a sea-controlled environment to 
now a ballistic missile defense environment.
    So many of the requirements that are driven in the PACOM 
AOR about my service ships are equally as much about anti-
submarine warfare and maritime security and patrol of the seas 
is equally about ballistic missile defense of our homeland and 
defense of our allies and the treaty allies we have.
    So I think we really do need to have that debate about, 
what is the right size for that? And I think the CNO [Chief of 
Naval Operations] is heading in that direction.
    Ms. Hanabusa. Thank you.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Kehler, good to see you again. I want to ask you if 
you agree with a statement made by Secretary Panetta last year 
before this committee in testimony, quote--``Reductions that 
have been made, at least in this administration have only been 
made as a part of the START Process, and not outside of that 
process, and I would expect that that would be the same in the 
future''--closed quote. Is that the right way to do our 
reductions?
    General Kehler. Congressman, yes I think so.
    Mr. Rogers. Thank you. Next, Assistant Secretary of State 
Stephen Rademaker stated in 2006 that, quote--``President 
Yeltsin committed to similar reductions in Russian tactical 
nuclear weapons, but considerable concern exists that the 
Russian commitments have not been entirely fulfilled''--closed 
quote. Mr. Rademaker was discussing the President's Nuclear 
Initiatives, PNIs, which President George H.W. Bush and 
President Yeltsin entered into. But without the treaty process, 
and thus it had no legal effect.
    In 2009, the Perry-Schlesinger Commission stated in its 
final report to Congress that Russia, quote--``Is no longer in 
compliance with PNI commitments.'' Do you have reason to 
believe that the Perry-Schlesinger Commission was wrong?
    General Kehler. I don't although I can tell you from our 
perspective today in terms of New START, we believe that they 
are complying. They are above the ultimate numbers, so are we. 
We are working our way down, and we believe they are complying.
    Mr. Rogers. What about Secretary Rademaker's position that 
I just outlined?
    General Kehler. You know sir, I am going to have to take 
that for the record. I really would like to know more about 
what he was really talking about.
    Mr. Rogers. Would you respond in writing when you have the 
chance to do that?
    General Kehler. Yes, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Rogers. And lastly, what would you say are our most 
significant concerns with respect to modernization of our aging 
strategic deterrent enterprise?
    General Kehler. I think that I have two primary concerns. 
Actually, I have got three primary concerns. One is in the 
command and control area, to make sure that we have kept our 
nuclear command and control, which is more and more and more 
becoming national command and control capability, that we keep 
that such that that is the bedrock of our deterrent. I think 
that in the forces themselves, as I said earlier, I am 
committed to wanting to support the replacement for the Ohio 
ballistic missile submarines. I fully support a long-range 
bomber that will eventually come along to supplement the B-2 
and potentially take the place of the B-52 as time passes.
    I support, even though it is not within my joint command, I 
get the use of the Air Force's aerial refueling tankers, and so 
I am deeply committed, because I see the value of those tankers 
every single day, and I know every combatant command would say 
the same thing, that they see the value of those tankers every 
day. And I certainly support the analysis of alternatives to 
look about what we might do with the Minuteman intercontinental 
ballistic missile beyond 2030, which is where the Air Force 
believes they can take it today. So, that is part number two.
    Part number three is the weapons themselves, and the 
nuclear enterprise that supports and sustains those weapons. We 
are in a different era today. The era that we are in, is an era 
of a moratorium on testing nuclear devices. And so we have got 
to maintain the science that underpins those weapons. We have 
got to make sure we are sustaining those weapons, and 
surveiling those weapons as they age, and then we have got life 
extension programs that we need to put in place.
    And all of this comes at a time of significant physical 
challenge as you all well know, and we are going to have to 
make some tough choices, I am sure.
    Mr. Rogers. In your opinion is that a limitation--a 
prohibition on testing inhibiting your ability to modernize?
    General Kehler. No, sir not today, it is not.
    Mr. Rogers. Thank you, sir. That is all I have, Mr. 
Chairman.
    The Chairman. Thank you. Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chair. Admiral, at the end of 
your written remarks targets your concerns regarding the 
impacts of inadequate maintenance, and a potential bow-wave of 
maintenance down the road. I know this is consistent with a 
letter that was sent out by the Secretary of the Navy, which 
detailed cutbacks resulting from sequestration. I was out on 
Friday at the Puget Sound Naval Shipyard, which is in my 
district in Washington State, and obviously the DOD [Department 
of Defense] civilians who were there were concerned about 
furloughs, and the impacts to them personally, financially.
    But the broader concern that was raised and I was very 
impressed with, the number of people who are concerned about 
the implications to national security to the real physical work 
done there at the shipyard at the west coast hub of maintenance 
activity. Can you say a bit more about the immediate impacts of 
sequestration with regard to maintenance and the mission in the 
Pacific? And the downstream impacts as well? And also if you 
could discuss for me the impacts of delayed maintenance on 
carriers and the national security implications as we shift our 
strategic focus to the Pacific?
    Admiral Locklear. Well certainly from my years of 
experience on ships, you know, you have to applaud our Navy 
today for how ready it is, and how it has been able to sustain 
itself, even the size it is globally in a pretty intense 
environment. But to do that, it is so far away from home, it 
requires a consistent approach to how you maintain and keep 
these ships going. As you know, they are complex platforms with 
tremendous amounts of capability that require sophisticated 
maintenance and upkeep.
    And that we do in the most cost-effective way we can, using 
the great resources we have, like in the shipyard that is in 
your district. And over time, we try to build a business model 
that allows us to keep our forces forward with the ones we have 
in the most efficient way we can. So when you put a burble in 
that, it is you know, you cannot change the oil in your car 
once, you cannot change it twice, but then when it is at 
100,000 miles you have an engine replacement.
    We need to have these ships around for 30 to 35 years. The 
same for our airframes across the Air Force, same for our 
submarines. So, built into them and the life expectancy that 
they have of many, many years, is a requirement to do 
maintenance, this is particularly important as well in our 
carrier force. Our carrier force, I think continues to be one 
of the most important aspects of a peaceful maritime 
environment around the globe. And keeping the size of the 
carrier force that we have today globally deployed as a very 
sophisticated platform requires continuous maintenance.
    Of course it is amplified by the fact that they are nuclear 
vessels, so there is an aspect of us ensuring that the 
maintenance is done safely and properly, and I believe that 
the--if you look across the nuclear power program that the Navy 
has, it is an unbelievable model of success and safety. And we 
do that running the entire program with basically 19- to 25-
year-olds. And to do that, it requires investment and ensuring 
that the systems are maintained properly, at the right time 
periodicity.
    So as we interject this unpredictability into our 
maintenance schedules and we start doing things near term, it 
just--you don't--it is pay me now, or pay me later, and that is 
the era I think we are entering into more under sequestration.
    General Kehler. Congressman, could I add a piece to that? 
From another joint perspective, I think it is important to note 
that as we defer maintenance, we are beginning at a different 
starting point. We are coming out of 10 years worth of high 
operations tempo events. And so the stress on the platforms to 
begin with is higher than it has been at other places when we 
have tried to reset in the past. Or at the end of other 
conflicts. This is a force that, whether it is flying hours on 
aircraft, or steaming hours on ships, or vehicles that the Army 
has, we are starting at a far different place. And so the 
magnitude of deferred maintenance I think is going to be 
higher.
    We also have some older platforms today, the car oil change 
analogy is--you know if your car already has 200,000 miles on 
it, you have got a different place to start.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Gentleman, thank you. I always try to take a moment just to 
express my gratitude for people like yourselves that give your 
whole lives to the cause of human freedom. On behalf of my 
little 4-year-old twins, I am grateful because I think they 
have a better chance at life because of what people like you 
do. With that, my first question is directed to you General 
Kehler. I just want to thank you for your written testimony, in 
which you state, and I will quote you if I can, quote--
``Ballistic missile threats are likely to grow at least as 
rapidly as our defensive assets, giving us little margin for 
error in acquisition and force management decisions.''
    ``Sustained missile defense investments support deterrence 
and assurance goals by significantly improving the protection 
of our homeland, our forward base forces, and our allies and 
partners.'' And I am in violent agreement with you. I think 
that that is well stated. And I have--I wanted to ask you about 
your concern with the potential threat posed to our critical 
infrastructure by a major EMP [electromagnetic pulse] event, 
you know GMD [Ground-based Midcourse Defense], or something 
deliberate, or even in isolated cases, EMI [electromagnetic 
interference] technology that seems to be at least on the North 
Korean radar, and as stated in STRATCOM's mission, you know, 
your responsibility to prepare for uncertainty and partner with 
other COCOMs, how is STRATCOM preparing? How does it perceive 
the uncertainty of a threat like EMP?
    General Kehler. Congressman, I think the entire 
electromagnetic spectrum needs to get more attention, and we 
have stood up, we were given over the past several years a 
number of organizations that work various parts, either 
assessing potential threats whether it is EMP, or in some cases 
cyber threats to our systems and our capabilities. We have now 
some organizations that do that. We have some other 
organizations that are looking hard at how to detect such 
electromagnetic spectrum issues, whether it is EMI or EMP when 
it occurs.
    We have some others that are doing some planning against 
how to deal with those threats as they emerge, and we have put 
all of those together now in one single organization. It is in 
many different places, in one single organization to try to 
address these on behalf of STRATCOM and the other combatant 
commanders. I think we haven't paid nearly enough attention to 
this. I am concerned about the threat of electromagnetic pulse. 
There are some pretty good books that have been written here 
recently about this, a couple of novels that were written that 
you turn the page looking for the happy ending and it never 
comes in the book.
    And so I would tell you that we are still mindful of 
electromagnetic pulse. It is not a Cold War relic. It is 
something that we need to prepare some of our systems to deal 
with in the operational environment.
    I think as we look particularly at anti-access/area-denial 
environments in the future, one of the ways that adversaries 
will try to take away our U.S. advantages will be through the 
electromagnetic spectrum. Whether that is jamming, whether that 
is some kind of electromagnetic interference or whether it is 
through cyberspace or whether it is via an electromagnetic 
pulse, we need to be prepared for that.
    And I think that we need to--we have a lot of work to do. I 
am not yet comfortable that we have gone anywhere near where 
the magnitude of this problem should take us.
    Mr. Franks. Well, thank you, sir. I am glad you are where 
you are.
    Admiral Locklear, can you describe the capability, for this 
committee--some of us are perhaps more familiar with it than 
others--of the sea-based X-band radar and why it is important 
as a capability? And is it a capability that we continue to 
need to defend United States and deployed forces?
    And what is its special significance on issues like, 
perhaps, protecting us from, you know, road-mobile missile 
threats from a North Korea sometime in the future?
    Admiral Locklear. Well, the sea-based radar has been an 
important part of our ballistic missile defense architecture as 
we built it over the last decade or so. It has played a 
tremendous role in research and development. It is a great 
radar. It is on a mobile platform, so it has those attributes 
to it. But it is not an end all to beat all, I mean, it is just 
a part of an architecture. So as we go forward in the future--
and it is an expensive part of the architecture, to maintain it 
at sea. So as we go forward in the future, we will have to look 
at how it might--and we do, we are looking at that now--how it 
might more effectively fit into that architecture over the long 
run, or whether it is eventually, at some point in time, 
replaced by something else.
    Because the nature of the platform it is on just becomes 
more and more expensive every year to keep it, because it is 
kind of an unusual, unusual thing. But it has tremendous 
capability and we have and will continue to use it as necessary 
to ensure that we are properly defending our national 
interests.
    Mr. Franks. Thank you, gentlemen. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I am just reading some reports about North Korea and the 
fact that the U.N. is considering a new raft of sanctions 
against North Korea as the result of its testing of a nuclear 
device back in February. The blast from that device being about 
double the force of the last device that was tested back in 
2009. And this device being miniaturized, as was described by 
the North Koreans.
    So the thinking is that perhaps this miniaturized nuclear 
device that was successfully tested, coming behind the recent 
successful launch into space of a North Korean satellite, it 
raises the specter that there is now a nuclear device that can 
fit onto a missile, which can then be used to launch a nuclear 
strike.
    And now, with this talk of new sanctions and there being an 
agreement, by the way, with the Chinese, the only ally of North 
Korea, being a party to this agreement for sanctions, we are 
looking at an unsafe area of the world, no doubt. A young 
leader who has never been told no, who has always gotten his 
way and who is just uneducated about military affairs, world 
affairs, how his country fits into the overall scheme of 
things.
    And it is sobering to think that these kinds of things are 
happening throughout the world. But just using this as an 
example. And here we are going through senseless cuts to our 
ability to defend the Nation and its interest, this 
sequestration. Something has to happen.
    But tell me, what do you think--how do things look as far 
as North Korea, which threatens to withdraw from its armistice 
agreement that has resulted in no hostilities over there, well, 
I won't say no hostilities, but has kept hostilities low? What 
do you see happening over in North Korea?
    And I will ask that first of General Kehler, and then if 
you would respond, Admiral.
    General Kehler. Congressman, from my perspective in 
Strategic Command, all of the items that you described are 
deeply concerning. We have seen North Korea parade a long-range 
ICBM [intercontinental ballistic missile]. There are, I think, 
valid questions about how far along that program is. We have 
seen other steps that you mentioned. And so all of that 
together is deeply, deeply troubling.
    We have been involved with a review of our plans and our 
posture related to North Korea, particularly we have been 
working very hard with Pacific Command and Northern Command 
regarding our ballistic missile defense posture and our 
ballistic missile defense approach.
    So as I said earlier, I am confident that STRATCOM can 
perform its deterrence and assurance mission today. And that we 
are capable of extending our deterrent umbrella over our key 
allies in Admiral Locklear's area of responsibility.
    I am equally confident that we can meet a limited missile 
threat from North Korea with ballistic missile defenses that we 
have in place.
    Mr. Johnson. All right. Well, given that, could I now, 
since I only have 20 seconds----
    General Kehler. Yes, sir.
    Mr. Johnson [continuing]. Could I go to Admiral?
    Admiral Locklear. Well, to your comments, I think you 
articulated what Kim Jong Un wants the world to believe. And 
so, the fact that he talks about it and demonstrates things and 
shows things, I think it causes us to have to take them--at 
least be concerned about them.
    But I think the important thing for the new leader to 
recognize is that, in the end, this will be unsuccessful. In 
the end, this is not in the best interest of the people of 
North Korea, where the average citizen gets about 800 calories 
a day. They spent more money on the missile launch in 1 day 
than they could have fed their entire nation for 1 day--or for 
1 month, on what they spent in 1 day to launch a missile.
    And so, we are--us and our Korean allies, we are postured 
to ensure we are monitoring carefully what is going on on the 
Korea peninsula. Obviously, our defensive forces are postured 
in case something really crazy were to happen.
    But in the end, we have to, I think, number one, applaud 
the efforts of the U.N. Security Council as they continue to 
put pressure on this regime from all sides. And in the end, 
just assure Kim Jong Un that his strategy will not be 
successful.
    Mr. Johnson. Thank you. I yield back.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    General Kehler, I represent the 4th District of Louisiana, 
which is the home of Barksdale Air Force Base and Global Strike 
Command. And I want to thank you both for appearing before us 
today.
    I am very much sold on the idea of nuclear deterrence and 
also on nuclear security. And I want to point out that in a 
fiscal year 2013 National Defense Authorization Act, Congress 
added language addressed to the issue of nuclear weapons 
storage areas, WSAs, and quotes the 2008 SECDEF [Secretary of 
Defense] Task Force on DOD Nuclear Weapons Management, which 
concluded, and I quote--``the closure of WSA at one of the 
bomber bases was a significant mistake with a negative 
operational impact.''
    As it stands now, with the closure of the Barksdale WSA in 
2007, we have a single point of failure in the ALCM [Air 
Launched Cruise Missile] mission.
    And just to kind of expand a little bit, as you know, if we 
have all of our ALCMs in one location, and for whatever reason 
we have to gear up for battle at some point, or maybe a higher 
level of alert, then obviously other nations can monitor our 
bombers going and picking up the ALCMs from another location.
    It takes a little bit of the surprise effect away and 
certainly it is important that we keep, again, nuclear 
assurance.
    So I just wanted to get your response. I know that a lot of 
this is driven by budget issues. We are talking about anywhere 
from $80 to $200 million going forward, if you include not just 
the standards that have to be brought to bear on the WSA site, 
but also the employment and other, I guess, device expenses.
    So what is your response? Is this something that we are 
going to be able to stand up at some point, maybe when we get 
past sequestration?
    General Kehler. Sir, I think that it is something for us to 
go look at as time passes. I think particularly as we go 
forward and we begin to see a long-range strike platform come 
into being, I think where and how we base that, how we would 
support the dual-capable nature of that platform.
    Just like we do with the B-52s today, we made some 
decisions about how to support the dual-capable nature of those 
B-52s, I think there are many questions for us to ask and that 
we will have to answer as we go forward.
    Today as you say, that would be a very expensive 
proposition to try to go back and revisit. However, I can say 
that commander of Global Strike Command and I have just met to 
discuss nuclear security and I know he has in his mind a review 
of that and the other storage areas because as we go forward, I 
think we recognize there are some investments going to have to 
be made to keep up to date with security standards and other 
things.
    I can tell you we are, I think security-wise, we are in far 
better condition today than we were just a few years ago. But I 
think as we go forward to make additional security 
enhancements, it will be an opportunity for us to come back and 
take a hard look.
    Dr. Fleming. Right.
    And maybe to follow up and expand that a little bit more, 
does the Air Force and the Department of Defense remain 
committed to a nuclear triad as effective deterrents, you know, 
the you just mentioned the long-range strike fighter platform 
that will eventually replace the B-52. There may be some that 
are critical of that and certainly we follow that closely. B-
52s at some point in time will be too old to fly.
    Now they may be a century old before that happens and as 
you know, General, they are doing an outstanding job as they 
are. But some day, they are just simply going to wear out.
    Are we still committed to that nuclear triad and to the 
newer platform?
    General Kehler. I am certainly committed to the nuclear 
triads. Strategic Command's position is that we are committed. 
I have seen, certainly I heard Secretary Panetta say more than 
once that the Department was committed. I have seen some 
written commitment to that effect from Secretary Hagel. It was 
the recommendation of the nuclear posture review to sustain a 
triad, and that would certainly be my position going forward.
    I think much like every other item that will be on the 
table as a result of fiscal issues, I suspect that that will 
get looked at again. But I can tell you my view is we ought to 
continue with that.
    Regarding the replacement, one of the enduring advantages 
of the United States is that we have the ability to project 
power and----
    The Chairman. Thank you, the gentleman's time has expired.
    General Kehler [continuing]. Lots of reasons for that, the 
long-range air piece is a big part of that.
    Dr. Fleming. Thank you, Chairman.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And thank you, General Kehler and Admiral Locklear, for 
appearing before the committee today and I certainly appreciate 
your service and I also appreciate having the benefit of your 
insight and experience as we attempt to navigate a policy and 
budgetary challenges.
    General Kehler, if I could start with you, turning to one 
of my favorite subjects, cyber. General, with the complex 
demands of operating cyberspace, it is certainly no surprise 
that U.S. Cyber Command has expressed a need to increase the 
number of its cyber professionals as recently announced. 
However, I am also given to understand that the situation is 
not as simple as adding more people, that instead they will be 
reallocated within the service components.
    What progress has been made in acquiring these 
professionals? What training will they require? And how they 
would be allocated across the services and what is STRATCOM's 
role, specifically in shaping this force and in advocating for 
the resources needed?
    General Kehler. Sir, let me start with the last piece 
first. The responsibilities to protect the Department of 
Defense's networks and to be prepared for activity in 
cyberspace, remain assigned to Strategic Command to include 
advocacy, to include our responsibility to make sure that the 
service are providing us with adequately trained and resourced 
sufficient capacity and capability, if you will.
    I delegate most of those responsibilities on a day-to-day 
basis to the commander of the U.S. Cyber Command, General 
Alexander, who executes--he is the execution arm if you will of 
this and of course, as you know, his command has been growing.
    This is a growth area I believe for the Department as we 
look to the future. I will get you the specifics for the record 
in terms of the number of people that we have added here in the 
near term.
    [The information referred to can be found in the Appendix 
on page 115.]
    General Kehler. What we have finally done is we have come 
to grips with how to describe--how we would grow the cyber 
capacity and capability if this was F-16 squadrons, we would 
know how to do that. We would have a model for how to do that.
    We finally put something in place for cyberspace as well. 
So we can now come back into the resource allocation process 
and advocate for the amount of resources that we need. I think 
that part of it is going well. The question will be with budget 
reductions, is how successful we will be and I think that is an 
open question that we will have to see how that goes as time 
passes.
    But in my view, anyway, cyberspace is such an important 
part of our national security and our economic well-being and 
our ability to conduct business. As you know, the bulk of 
cyberspace exists in the civil domain. I think that having said 
that, though, its use for national security purposes is 
critical and it is important that we do everything we can to 
grow the capacity and capability we need to make sure that we 
can operate there effectively.
    Mr. Langevin. Thank you.
    Admiral, let me turn to you, can you discuss the role that 
cyber operations play in your activities, particularly in 
information operations programs and how they factor into your 
partnership activities in the Pacific. Do you feel that your 
command is adequately resourced in cyber in order to remain 
resilient in full spectrum conflict?
    And then the second question I have for you, if you could 
probably start with this one first. I continue to be concerned 
about the capabilities of our bases to withstand a cyber attack 
directed against outside supporting infrastructure, such as the 
electric grid, which is owned and operated by the private 
sector, but you don't have any responsibility or capability to 
defend that private network. Your, but our bases are dependent 
on them.
    Your predecessor, Admiral Willard testified on this topic 
last March. Can you update us on the progress that has been 
made in evaluating the ability of our bases in the PACOM AOR to 
operate and recover in the event of such an attack as well as 
any mitigation members that are underway?
    Admiral Locklear. Well, you know, cyber domain is the only 
manmade domain that we have, air time, space and others are 
given to us; this one we created. And sometimes we tend to 
think of cyber as only what shows up at the end of our computer 
device in our hand. But the reality is there is a large 
supporting infrastructure that supports cyber globally, not the 
least of which is under-seabed cables which are prolific 
throughout the world, it would have to be understood where they 
are and how those are protected.
    So to the question of what we have done in the last year to 
look at our ability to operate our cyber networks. Assuming 
that the infrastructure in those cable networks, those things 
are secure which is one of the things that I have to worry 
about.
    And from the defense perspective, from my ability to 
operate as a--and to operate the forces I have, I feel 
relatively secure that we can defend the networks that we 
actually would do warfighting or contingency operations on. But 
we are working hard at it and Cyber Command's agreement to grow 
and to provide experts and allow us to know how to do computer 
network defense, how to recognize computer network attack, 
these are all important and they are critically important to me 
and to PACOM AOR.
    Mr. Langevin. I know my time expired----
    The Chairman. Thank you.
    Mr. Langevin [continuing]. Admiral, if you could though 
write and respond what we have done to protect our ability to 
be resilient in our bases.
    Okay, thank you
    The Chairman. Excuse me, I didn't hear you but your time 
had expired. What were you requesting?
    Mr. Langevin. They--the Admiral didn't quite answer my 
question in terms of what has been done in terms of 
resiliance----
    The Chairman. Okay, would you please respond for the 
record?
    Admiral Locklear. Can I provide it in--I will provide you a 
written answer to it. Will that be adequate?
    Mr. Langevin. That would be adequate.
    Admiral Locklear. Thank you.
    [The information referred to is classified and retained in 
the committee files.]
    The Chairman. Thank you.
    Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman.
    Admiral Locklear, what transnational terrorist threats are 
the greatest concerns to you in the PACOM AOR and how are you 
engaging with our international partners to address the 
terrorism threat in Southeast Asia and how will the current 
fiscal constraints impact that engagement?
    Admiral Locklear. Right, well, if you look globally at 
terrorist threats and violent extremist organizations, they are 
increasingly kind of popping out in the Asia-Pacific region. 
And whether they are in the south of the Philippines or in 
other areas, the vastness of the region and the way that it is 
structured, I think allows the opportunity for, if not 
monitored properly, to be a proliferation area for terrorists.
    Now, but that is not the only threats. We know that 
Southeast Asia is the number one supplier of precursors for 
methamphetamines that are created in drug labs inside the 
United States. So we have a JIATF [Joint Interagency Task 
Force] West that works for me and we do a large network of 
looking and interdicting and understanding networks that 
provide these, what would appear to be innocuous chemicals that 
show up on ships that show up in our ports and harbors that 
eventually show up in garages and people's houses that are 
making illegal methamphetamines that are being--now I think 
the--they are probably one of the number one scourges of parts 
of our society.
    So, the next thing that I would say is fairly prolific in 
this region is the human slave trade that has to be contended 
with. I am told that last year alone, the human slave trade was 
worth about $30 billion globally--$30 billion, that is as much 
as I think Nike, Google and Starbucks put together.
    And so, looking not only at how do you stop that, but what 
are the networks that are benefiting by this type of 
unbelievable behavior that adds to the sense of lack of 
security in areas where we have a lot of national interest is a 
priority for us at PACOM.
    So those are the ways we look at it.
    Now you can't--the area is too big to interdict all this 
stuff. If you were taking interdiction mentality, you would run 
out of resources in a very short period of time.
    So what we have to do is we have to--through our 
partnership building, through our interagency processes where 
we go in with the FBI or we go in with AID or we go in with the 
CIA or other interagencies. And we work with these nations to 
let them, first of all, understand what is happening to them. 
Let them be able to sense what is happening and then to help 
them, hopefully build partnership organizations or 
organizational structures inside their own militaries and their 
own governments that allow them to deal with this in an 
effective way. And I think we are having some great progress 
throughout the Asia-Pacific.
    Dr. Heck. Well, can you address the last piece, the current 
fiscal constraints, what is it going to do to your ability to 
have an impact on those three areas?
    Admiral Locklear. Well, I mean, just recently my JIATF West 
organization took about a 20 percent reduction in their 
operating costs, just in this year.
    So that is the organization that drives all of these 
discussions. It is predominantly a civilian-led, government 
civilian-led organization. So the ones that are left, they will 
be working 4 days out of the week.
    So it compounds the problems in ways that I think that 
aren't always apparent to the people talking about 
sequestration.
    Dr. Heck. General Kehler, I have got about a minute and a 
half left.
    We are seeing some increased threats to our space-based 
capabilities. What is STRATCOM doing to monitor our space 
capabilities against disruption of service and other threats? 
And how are we postured to respond to these threats?
    General Kehler. Congressman, over the last year we have 
done a lot to improve our plans and to address our resilience 
so that we can continue to deter such attacks. But you are 
right. We see the potential for those kinds of activities in 
space, or directed against space objects, growing as time 
passes.
    Space is no longer an operational sanctuary, for the United 
States, certainly. And we are dealing with that through 
improved plans, our improved ability to monitor what is 
happening. And ultimately we need to transition from monitoring 
and building a catalogue of items that are there to getting to 
real-time situational awareness, like we would have in the air, 
for example.
    So we still have a lot to do. There could be investment 
impacts there, as time passes. But how we process sensor 
information about what is happening in space and how we 
maintain global awareness and situational awareness in space is 
going to be critical as we go to the future.
    How we plan, then, to improve our resilience, I think, will 
be equally important.
    The Chairman. Thank you. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman and Ranking Member 
Smith. And thank you, General and Admiral, for your time this 
morning.
    I especially appreciate Admiral Locklear. I appreciate your 
opening comments and thank you for reminding the committee 
about the vastness of the Pacific Ocean and the strategic 
importance of the U.S. territory of Guam.
    Admiral, I am particularly interested to hear your views on 
the rebalance of forces in the Pacific. Can you address some of 
your challenges regarding the distributed lay-down of Marines 
in the Pacific? How the current budget outlook may affect the 
timing of this plan?
    And I do hope that PACOM continues to prioritize our 
investments and realignments in the Pacific.
    Admiral Locklear. Well, thank you. As I said earlier, I 
think we have a good plan. I think it one that certainly makes 
sense in the context of where we want the Marines laid down for 
the 21st century in the AOR.
    Guam is a centerpiece of that. I mean, if Hawaii is kind of 
the front door to the Asia-Pacific, Guam is well into the heart 
of the living room. All it takes is just a quick look at the 
vastness of the region and a map and you can see why we would 
want to make sure that we optimize our capabilities, both in 
peace and in crisis, from Guam.
    And that bringing this part of the Marines back there is a 
critical piece of that.
    So the challenges to it are ensuring--it is a little bit of 
a house of cards. You have to move one thing before you do the 
next. So ensuring that we can move ahead with the changes that 
we need to be funded in Okinawa, to be able to allow the 
movement of those Marines in a timeframe that allows us to have 
the infrastructure that is needed to be constructed on Guam.
    And we have--quite frankly, I think we have had some 
struggle in trying to get those funds released. And I am 
hopeful that in the coming weeks and months, that that will be 
in our favor.
    Ms. Bordallo. Thank you very much, Admiral.
    I would also like to ask about bilateral and multilateral 
military training exercises in your AOR. I understand that the 
current budget will place constraints on training and joint 
exercises. But in a more ideal fiscal situation, what would you 
like to see with regard to multilateral training in the 
Pacific?
    I fear that we have a lot of bilateral training exercises 
that could be better leveraged through our multilateral 
training.
    And also if you could please address how you intend to 
provide effective training in a more cost-efficient manner, 
given DOD's budget constraints?
    Admiral Locklear. Well, you know, after the World War II, 
we basically had a bilateral relationship structure, kind of a 
hub-and-spoke structure for U.S.--with U.S. allies and U.S. 
partners. It served us quite well for many decades.
    But the strategic landscape has shifted to some degree now 
and the importance of multilaterals, I think, is growing day by 
day. The importance of multilaterals is if you get a larger 
group of like-minded people working on problems that all matter 
to them, you build improved inter-operability between 
multilaterals instead of bilaterals.
    You get in a very vast and uncertain region, you get a much 
better intelligence and picture of what is going on if you have 
multiple countries participating in that. Because they all have 
a little bit different view than we may have from Hawaii or we 
may have from Washington.
    So we are pursuing multilaterals. We are very supportive of 
ASEAN [Association of Southeast Asian Nations], the East Asia 
Summit, and those multilateral forums. Even with our own 
allies, we are pursuing more trilateral operations where we can 
between Japan, the U.S. and Korea. Japan, the U.S. and 
Australia. Just pick one. But we are moving in the direction of 
multilateralism.
    And you can--you really--in fact, if you take the Rim of 
the Pacific Exercise, which is the largest maritime exercise in 
the world, it is a multinational exercise. I think last year 22 
nations participated. Russia came with ships for the first 
time. It was a great success. We invited the Chinese, the PLA 
[People's Liberation Army], to send ships in 2014 and we are 
hopeful that they will come and participate.
    But in those, we get to know each other better. We get to 
operate together. We get a common understanding. And when you 
have militaries that can operate and understand each other, it 
lowers your threshold of crisis, no matter how you cut it. It 
is a good thing for all of our security and our own national 
security.
    Now how can we be more effective in our training? One is to 
ensure that the bilateral training we do is effective for the 
strengthening of the alliance. But that where we can leverage 
that bilateral training into multilateral, that we take those 
opportunities. And we are doing that.
    We also have to make sure that our range systems, where we 
have actually conduct our operations, our training operations, 
are unencumbered, remain unencumbered. Encroachment is one of 
the biggest problems we have everywhere in the world today, 
where sometimes it gets too hard to do operations because they 
are just too big of a population growth area or environmental 
concerns.
    So our ranges in the Pacific Northwest are critical. Our 
ranges around Hawaii that we have already talked about are 
critical. The opportunity to find additional range space in 
your part of the world, I think will be important.
    Ms. Bordallo. Thank you very much, Admiral, for your 
continued interest in our area. And thank you, General.
    I yield back.
    The Chairman. That is it. Thank you very much for your 
service. Please convey our thanks to those under your command, 
the men and women that are serving.
    Thank you very much. This committee stands adjourned.
    [Whereupon, at 12:19 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 5, 2013

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2013

=======================================================================

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 5, 2013

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MR. BISHOP

    General Kehler. I am not aware of any negotiated, bilateral and 
verifiable agreements regarding nuclear weapons that did not take the 
form of a treaty or a Congressional-Executive agreement (SALT I). [See 
page 22.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN
    General Kehler. USSTRATCOM and U.S. Cyber Command are working with 
the Joint Staff and Service Chiefs to identify, train and position the 
highly qualified and standardized cyber force that this nation needs. 
The first one-third of this force is being generated this year by 
realigning existing personnel within U.S. Cyber Command service 
components to form the Cyber Mission Force. Plans are in place to 
provide individuals with requisite training utilizing existing DOD 
training courses. The remaining two-thirds of the planned force is 
being identified, trained and positioned in FY14-FY16. The service 
burden conforms to a standard 30-30-30-10 (personnel percentage from 
each service) model for Army, Navy, Air Force and Marine Corps 
respectively. I am fully engaged with Commander U.S. Cyber Command to 
shape and advocate for the cyber professionals the nation needs to 
defend and operate in cyberspace. [See page 36.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 5, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. I understand that the Air Force is in the process of 
conducting an analysis of alternatives for the next generation Defense 
Meteorological Satellite Program (DMSP). Additionally, a recent GAO 
report on government risk highlights various capability gaps in 
environmental satellite data that could lead to inaccurate future 
weather forecasting. What is the Air Force doing to mitigate risk, and 
has the Air Force considered purchasing commercial data from American 
companies as a potential solution?
    General Kehler. Air Force Space Command (AFSPC) will complete an 
Analysis of Alternatives (AOA) in the summer of 2013. The AOA will 
determine if and when a replacement for DMSP is required and identify 
alternatives to support continued mission success. To mitigate risk, we 
recently provided direction to reduce the DMSP constellation to a 
single orbit allowing the DOD to launch a replacement ``on need'' and 
potentially extend coverage through the 2025 timeframe. There are 
currently no commercial providers for satellite weather data; however 
the AOA is considering a proposal by a commercial company that could be 
the provider of weather data. The AOA includes many alternatives which 
will be assessed for cost, risk and operational utility.
    Mr. McKeon. How do you assess national intelligence support to 
STRATCOM? Please specifically discuss support from the Defense 
Intelligence Agency, the National Geospatial Intelligence Agency, the 
National Security Agency, the National Reconnaissance Office, as well 
as the rest of the Intelligence Community. Do you have any 
recommendations to improve support provided by these agencies?
    General Kehler. In general, the Intelligence Community (IC) 
provides excellent support to USSTRATCOM:
    <bullet>  The Office of the Director of National Intelligence 
(ODNI) provides a senior representative to USSTRATCOM who coordinates 
and aligns IC support with my highest priorities.
    <bullet>  DIA provides high-quality, finished all-source 
intelligence reporting and strategic assessments; collection management 
support and advocacy; and the foundational intelligence and data 
necessary to meet our strategic warning and targeting needs. However, I 
am concerned that my rapidly expanding requirement to understand 
adversary decision calculus combined with planned DIA reductions could 
impact DIA's ability to meet USSTRATCOM's needs.
    <bullet>  NGA provides excellent imagery intelligence analysis and 
imagery systems support. An NGA Support Team (NST) provides critical 
analysis in support of my missions and is fully integrated within my 
Joint Intelligence Operations Center (JIOC). This arrangement has 
become the model for imbedded national agency support.
    <bullet>  NSA provides direct and reach-back support by embedding 
signals intelligence experts within the JIOC, and NSA's integration 
with USCYBERCOM remains essential for execution of the cyber mission. 
NSA's reporting and analysis has been somewhat degraded by resource 
reductions, but remains satisfactory overall.
    <bullet>  NRO maintains a liaison office at USSTRATCOM and provides 
critical support to my space mission.
    Because budget reductions are being addressed independently by each 
Agency, I am concerned that unless the cuts are coordinated within the 
IC, the aggregate effect could introduce additional risk to IC support 
of Combatant Command missions.
    Mr. McKeon. How does the Joint Forces Component Command for ISR 
prioritize and determine ISR allocation to Combatant Commands? What are 
the challenges associated with such allocation determinations?
    General Kehler. JFCC ISR, through the Global Force Management (GFM) 
process, uses the Guidance for the Employment of the Force (GEF), and 
more specifically the Force Allocation Decision Model (FADM), to inform 
prioritization and allocation recommendations. The FADM lays out 
prioritized categories for specific missions and target areas across 
the geographic Combatant Commands (CCMDs). However, when developing 
allocation plans and recommendations for Secretary of Defense approval, 
JFCC ISR does not only recommend ISR capabilities according to the 
FADM. Instead, to the degree possible, JFCC ISR accounts for the 
marginal intelligence gain or loss in each GEF Category and distributes 
ISR capabilities across the categories to better support current 
operations and hedge against mid-term and long-term threats.
    The challenge associated with ISR force allocation is that the 
process is not all science. There is an art to quantifying and/or 
qualifying intangible (yet invaluable) concepts such as intelligence 
gain and operational risk.
    Mr. McKeon. The committee understands that U.S. Pacific Command is 
currently undergoing a manpower study to review its size and structure 
as part of DOD's shift to the Asia-Pacific region.
    a. Do you anticipate making any changes to its size and structure 
of PACOM headquarters?
    b. Can you provide details of any potential areas of concern for 
the command in terms of staffing? For example, do you anticipate any 
growth or shifts of personnel within the J-code structure in PACOM?
    c. We understand that PACOM has more than one-fifth of its 
authorized headquarters staff in the commander's staff, the J0. What 
functions do these staff perform versus the other staff in the plans, 
logistics, and other directorates? How do you avoid overlap or 
duplication of effort?
    Admiral Locklear. a. Yes. HQ USPACOM recently underwent a manpower 
study to validate our rebalance manpower requirements. The study was 
led by the U.S. Army Force Management Support Agency and contained 
representatives from all Services. The team conducted a comprehensive 
review of all the HQ missions, billets, as well as organizational 
structures, and validated 152 new or realigned manpower requirements 
(90 mil/62 civs). These are needed to ``rebuild readiness areas that 
were deemphasized over the past decade'' and ``expand our networks of 
cooperation with emerging partners'' as directed in the President's 
``Rebalance'' strategy, documented in Sustaining Global Leadership: 
Priorities for 21st Century Defense, January 2012. The manpower study 
will serve as the documentation to support the USPACOM rebalance 
manpower request that will be submitted to the Joint Staff's Joint 
Manpower Validation Process (JMVP).
    b. Potential areas of concern highlighted by our recent manpower 
analysis include insufficient staffing levels in the areas of 
Targeting, Space Operations, Ballistic Missile Defense, Air Defense, 
Global Force Management, Cyber Operations, Planners (Operations, 
Strategic, Engineering, Logistics), and more. USPACOM is executing 
internal shifts to address our priority requirements. However, we 
anticipate growth within the J-code structure to meet expanding mission 
requirements and to reduce capability gaps. We will request the 
manpower growth required to reduce these gaps and mitigate risk through 
the JMVP.
    c. The J00 (Commander) personal staff consists of 18 manpower 
billets that provide direct support to the commander. In addition, 
within the J0 Staff are the Deputy Commander, Chief of Staff, Surgeon, 
Headquarters Commandant and their supporting staffs. Other headquarters 
staff elements, such as protocol, legal, and public affairs provide 
administrative and advisory support to the entire headquarters staff. 
These functions are common amongst all Combatant Command (COCOM) and 
Service component headquarters staffs. The recently-conducted manpower 
review of headquarters staff analyzed overlap and duplication of effort 
and resulted in subsequent staff realignments. One result of this 
analysis was the reallocation of 14 billets into J3, J5, and J6 in 
March 2013.
    Mr. McKeon. The committee understands that PACOM also has over 
1,200 personnel authorized to support subordinate unified commands in 
South Korea, Alaska, and Japan as well as more than 1,400 in direct 
reporting units such as a drug task force and missing person's office.
    a. How does the command manage and oversee personnel within the 
subordinate unified commands and direct reporting units to ensure that 
resources are being efficiently allocated and that there is no 
unnecessary overlap in functions?
    b. Are some or all of these subordinate unified commands and direct 
reporting units part of the ongoing manpower reviews?
    c. What changes, if any, do you anticipate in their size and 
structure?
    Admiral Locklear. In fiscal year 2013, USPACOM is authorized 3,518 
active duty military and civilian positions. A total of 686 positions 
support subordinate unified commands; US Forces Korea (468), US Alaskan 
Command (66), US Forces Japan (152). Direct reporting units account for 
2,075 positions including: Joint Interagency Task Force-West (108), 
Joint Prisoners of War Accounting Command (JPAC) (631), Defense 
Intelligence Agency (837), Special Operation Command Pacific/Korea 
(336), Security Cooperation Organization (151), Center of Excellence 
(10), and USPACOM Rep Guam (2). The remaining 757 billets support 
Headquarters PACOM.
    a. Over the past five years, USPACOM conducted multiple studies of 
the headquarters, subordinate unified commands and direct reporting 
units to ensure that resources are efficiently allocated and contained 
minimal overlap in functions. In 2007, USPACOM conducted a COCOM 
headquarters baseline review, led by Deputy Secretary of Defense. In 
2010, PACOM conducted a zero-based manpower review of the headquarters, 
subordinate unified commands, and direct reporting units in response to 
the Secretary of Defense's 2010 efficiency initiative. We also 
conducted in-depth analysis looking at the feasibility of 
disestablishing the U.S. Alaskan Command and assessing the alignment of 
the Joint Interagency Task Force-West with Special Operations Command 
Pacific. In addition to multiple manpower reviews, U.S. Pacific Command 
Instruction S3020.2L, Command Relationships in the U.S. Pacific 
Command, defines the command relationships between Commander USPACOM 
and subordinate commanders and between the commanders and established 
coordinating authorities. Given the governing guidance and recent 
studies conducted over the last five years, USPACOM believes existing 
resources are appropriately allocated and there is minimal overlap in 
functions. The most recent headquarters manpower study actually 
highlighted a significant shortfall in manpower resourcing needed to 
address high risk levels and capability gaps in the following areas: 
Targeting; Cyber (Security, Analysts, Plans); Space Operations; 
Ballistic Missile Defense; Air Defense; Global Force Management; Joint 
Operations Center; Financial Controls; Foreign Disclosure Officers; 
Assessments; Medical Plans and Operations; Munitions Safety; POL 
Management; Senior Leader engagement; Inter-Agency coordination; and 
others. PACOM's participation in the Joint Manpower Validation Process 
(JMVP) provides the Joint Staff and OSD with an excellent opportunity 
to help this HQ mitigate the risk associated with these capability 
gaps.
    b. While the commands were not included in the most recent 
headquarters study, each has either completed or is currently 
conducting individual command manpower reviews.
    c. We anticipate programmatic manpower increases in the theater 
special operations command and JPAC (to support the requirements of the 
2010 National Defense Authorization Act). We also anticipate structural 
changes in U.S. Forces Japan and U.S. Forces Korea.
    Mr. McKeon. The committee understands that the service component 
commands supporting PACOM had about 2,500 authorized personnel in 2012, 
and the theater special operations command had 250 authorized 
personnel. How do you anticipate the rebalance towards the Pacific 
region will impact the size and structure of the service component 
commands and theater special operations command? Do you anticipate that 
they will need to get larger or need to make other structural changes?
    Admiral Locklear. In FY13, the service component commands 
supporting USPACOM were authorized 2,871 military and civilian 
positions in their headquarters staffs. This includes Pacific Fleet 
(638), U.S. Army Pacific (977), Pacific Air Forces (725), and Marine 
Forces Pacific (531). Special Operations Command Pacific/Korea, which 
is currently a USPACOM sub-unified command, is authorized 336 military 
and civilian positions. We anticipate that a balance of both growth and 
organizational structure changes will be required for the service 
component commands and the theater special operations command to 
effectively meet the January 2012 strategic guidance for the Department 
of Defense to rebalance to the Asia-Pacific region.
    Mr. McKeon. What other changes are needed to improve ``intelligence 
mission management'' for PACOM?
    Admiral Locklear. PACOM needs:
    (1) A doctrinal foundation for the Intelligence Mission Management 
concept
    (2) Professionalization of the Intelligence, Surveillance, 
Reconnaissance (ISR) and Collection Management career fields at the 
service and Department of Defense agency levels
    (3) Better ISR visualization and planning tools
    (4) Advanced Information Technology (IT) development to refine 
command and control of ISR
    Mr. McKeon. What role do area weapons, and particularly the Sensor-
Fused Weapon (SFW), have in operational plans for the Pacific Command?
    Admiral Locklear. In a Korea contingency, the North Korean military 
possesses a large and capable military that includes significant ground 
conventional armor, mechanized and light capability. Given this 
capability, current operational plans evaluate and address the threat 
posed to U.S. and allied forces. Sensor-Fused Weapons are one of the 
key munitions considered in countering or reducing the threat, while 
lowering the risk of collateral damage.
    Mr. McKeon. Are area weapons seen as essential in defending the ROK 
should deterrence fail?
    Admiral Locklear. Area weapons remain a significant and essential 
aspect to defending the ROK. The proximity of a large and capable North 
Korean military with significant ground conventional armor, mechanized 
and light capability highlight the need for area weapons. Without area 
weapon options, the level of operational risk and the threat to ROK and 
U.S. forces and the civilian population dramatically increases.
    Mr. McKeon. What type of consequences would you foresee if U.S. 
forces could rely only on unitary systems to defend against a North 
Korean armored attack? What costs in terms of protecting friendly 
forces, materiel and dollars would be incurred?
    Admiral Locklear. Based upon a formidable North Korean threat with 
the capability to conduct short to no notice conventional and 
asymmetric attacks, U.S. reliance strictly on unitary systems will 
increase operational risk to the U.S. and the Alliance. This 
restriction would delay the U.S. and Alliance ability to swiftly defeat 
North Korean aggression, likely increase the number of military and 
civilian casualties, and increase the overall materiel and dollar cost 
to prosecute a Korean contingency.
    Mr. McKeon. What efforts have been undertaken and are anticipated 
to remove by 2018 munitions available to the Pacific Command that are 
prohibited by the 2008 Policy on Cluster Munitions and Unintended Harm 
to Civilians?
    Admiral Locklear. USPACOM components have removed approximately 
260,000 rounds of cluster munitions from Korea since 2009 using planned 
surface ship retrograde missions and opportune lift, as available. 
Retrograde of cluster munitions is managed by the services with USPACOM 
service components reporting annually on their progress to-date towards 
meeting the reduction milestones mandated by the 2008 policy on cluster 
munitions. The component projections are tied to the assumption that 
funding for transportation and demilitarization are not significantly 
reduced.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. General, please discuss the risks and cost savings 
associated with any further slippage in the schedule for the Ohio-class 
submarine replacement. Will the Navy be able to fulfill STRATCOM's 
continuous at sea deterrence requirements in future years at the 
current schedule, and what is the effect if these replacement 
submarines are further delayed?
    General Kehler. The Ohio-class submarines will be the oldest class 
of submarine the U.S. has ever operated assuming they begin to retire 
in 2027, and it is my understanding that the Navy's current assessment 
is that they cannot be life-extended further. The Ohio Replacement SSBN 
is being delivered ``just in time'' to prevent a critical strategic 
deterrent capability gap and additional schedule slips would lead to a 
situation where current U.S. strategic deterrence requirements will not 
be met. It is also my understanding that delays could have negative 
impacts on the United Kingdom's efforts to recapitalize their ballistic 
missile submarine fleet.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. As the military's strategic pivot to the Pacific 
continues, I would like you to comment on the importance of airborne 
electronic attack (AEA). As our adversaries evolve their own 
capabilities--and even use rudimentary technology--to try to overcome 
our nation's superior weapons platforms, it seems absolutely critical 
that we control the electro-magnetic spectrum. From your perspective as 
the Strategic Commander, could you talk about the importance of 
expeditionary AEA in the context of your ability to conduct operations?
    General Kehler. Airborne Electronic Attack (AEA) is a key enabler 
at the initiation of hostilities, and critical to Joint Force freedom 
of action in any Anti-Access/Area Denial (A2/AD) environment. As the 
Joint Force advocate for Electronic Warfare, I am focused on retaining 
adequate AEA capacity and capability to ensure our success in conflict 
now and in the future. We must continue to press for the latest 
capabilities to ensure U.S. AEA capabilities remain ahead of our 
adversaries while retaining current capabilities within the confines of 
a resource limited environment. Additional investment in AEA capability 
and capacity will help provide the operational flexibility, 
responsiveness, and persistence required by the Joint Force to ensure 
future mission success.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. There are various efforts in the Department, namely Air 
Force, Army, and DARPA, to provide rapid low cost launch solutions. How 
do you foresee this type of capability being used by the warfighter? In 
light of increasing foreign threats to our space systems, how important 
is it that we prioritize these efforts?
    General Kehler. Rapid launch and low-cost launch are two very 
different considerations, and should be addressed separately. The 
priority for efforts to develop low-cost launch is very high, while the 
priority of effort for rapid launch development is significantly lower.
    Reducing launch costs benefits the entire space enterprise and 
would positively impact all users--military, civil and commercial. For 
DOD in particular, low-cost launch would help the business case for 
initiatives ranging from science and technology demonstrations to 
emerging operational concepts like cube/nanosats or disaggregated space 
architectures. In an era of fiscal austerity, reducing launch costs 
while maintaining high assurance is a top priority.
    Rapid space launch on the other hand requires a launch-ready 
payload--essentially developing, building and then storing satellites 
for future use. Historically, the costs on the payload side of the 
equation are too prohibitive regardless of launch costs or 
responsiveness. Therefore, to operate in this increasingly contested 
domain we are pursuing other approaches to protect/preserve our 
capabilities while on orbit.
    Mr. Rogers. There have been major advances in Overhead Persistent 
Infrared with the launch of the Space-Based Infrared System. Are we 
leveraging this capability to the fullest extent for missile defense? 
What challenges and opportunities are ahead?
    General Kehler. We are in continuous dialogue with the Missile 
Defense Agency (MDA) to exploit every operational advantage from our 
on-orbit systems. MDA has a plan to improve utilization of Overhead 
Persistent Infrared capabilities as they become available and the 
system matures. One challenge is the constrained fiscal environment we 
are in and the uncertainty surrounding the budget.
    Mr. Rogers. In your statement for the record, you outlined the 
competing forces on limited electromagnetic spectrum, which 
``potentially pits economics against national security needs.'' What 
are the warfighter's operational demands on electromagnetic spectrum? 
Based on past experiences with spectrum relocations, what would be the 
operational demands on the force if another round of relocations was 
called for? Further, based on the recommendations from the report by 
the President's Council of Advisers on Science and Technology titled 
``Realizing the Full Potential of Government-Held Spectrum to Spur 
Economic Growth,'' has STRATCOM assessed spectrum sharing as a feasible 
option in some instances?
    General Kehler. The electromagnetic spectrum (EMS) is a critical 
enabler of our nation's defense capabilities--not a single military 
mission is executed without direct or indirect reliance on the EMS. Our 
military relies on access and control of the EMS to successfully 
perform operational tasks ranging from precision guidance of advanced 
weapons to global Command, Control, and Communications (C3). At home, 
our forces must have the spectrum access required to test and train for 
employment of the capabilities integral to these operations. As the 
Joint Force advocate for spectrum matters, USSTRATCOM takes into 
consideration the potential adverse impacts of domestic spectrum 
reallocations on current and future military operations. The USSTRATCOM 
Joint Electronic Magnetic Spectrum Operations (JEMSO) Office works with 
the Joint Staff, DOD Chief Information Officer, and support agencies to 
review the feasibility of, and advocate for military spectrum 
requirements in potential reallocation or sharing scenarios.
    Mr. Rogers. During your testimony, you responded to Mr. Bishop that 
``if we're going to go beyond the New START levels of 1,550 then I 
think that should be bilateral.'' Can you please elaborate as to 
whether you think such reductions should be both ``bilateral'' and 
verifiable?
    General Kehler. Yes, I believe such reductions should be bilateral 
and verifiable. Bilateral reductions ensure stability and, when 
combined with verification provisions, guarantee both nations are 
adhering to the agreement.
    Mr. Rogers. In responding to Mr. Bishop, you stated some 
uncertainty about the Moscow Treaty, which was ratified by the Senate. 
Specifically, is it your understanding, as stated in the treaty's 
article-by-article summary, that the Moscow Treaty relied on the 
verification mechanisms in place under the START I agreement, at least 
until that agreement expired in 2009?
    General Kehler. The Moscow Treaty depended on the START Treaty's 
comprehensive verification regime to provide the foundation for 
confidence, transparency, and predictability. Without the START Treaty 
in force, the Moscow Treaty alone did not contain any measures to 
provide such confidence, transparency, and predictability.
    Mr. Rogers. Do you know of any rigorous analysis that would support 
the recommendations of several reports such as the Global Zero U.S. 
Nuclear Policy Commission Report, which advocate dramatic reductions in 
our strategic force numbers? To your knowledge, did the authors of that 
specific report interview you or any members of our strategic deterrent 
force leadership in the process of drafting their report? Do you 
believe in an underlying premise of that report that ``Security is 
mainly a state of mind, not a physical condition''?
    General Kehler. I am not aware of any rigorous analysis conducted 
within USSTRATCOM or the Department of Defense as a whole regarding the 
Global Zero or other non-DOD report. The Global Zero report authors did 
not interview me nor, to my knowledge, interview members of my staff. I 
do support critical review and examination of these key issues. I do 
not believe ``security is mainly a state of mind.'' Rather, I believe 
national security is better characterized as both a physical condition 
and the perceptions that exist about those conditions.
    Mr. Rogers. Are you concerned that our present nuclear arms control 
agreements do not encompass tactical nuclear weapons and isn't that 
asymmetry in our respective stockpiles a matter of concern? Am I 
correct that the Russian Federation could arm an Akula sub, or other 
sub, like the new Yasen class, with a cruise missile and it could be a 
threat to the U.S.? Am I correct that these types of weapons are not 
presently limited by any arms control regime? What level of these 
forces is destabilizing and a threat to the U.S.? Are you concerned 
that further reductions could undermine the credibility of our extended 
deterrence commitments to our allies and have the perverse effect of 
promoting proliferation amongst our allies?
    General Kehler. I agree with the findings of the Nuclear Posture 
Review that strict numerical parity with the Russian Federation is no 
longer as compelling as it was in the Cold War but large disparities 
may not be conducive to maintaining stability. Further, I agree that 
future reductions should include all nuclear weapons. Yes, sea launched 
cruise missiles could threaten the United States, and sea launched 
cruise missiles are not currently limited by any treaty. Given the 
existing U.S. and Russian Federation force levels and postures, I'm not 
concerned about stability issues. As discussed in the NPR, I believe 
any further reductions must continue to strengthen deterrence of 
potential regional adversaries, strategic stability vis-a-vis Russia 
and China, and assurance of our allies and partners.
    Mr. Rogers. Would you advocate any significant changes in our 
present doctrine of flexible response?
    General Kehler. I would not classify our present doctrine as 
``flexible response'' as this term is often historically used with 
President Kennedy's and President Johnson's administrations. More 
generally, I believe there are adjustments that can be made in our 
strategy to more properly align it with the current geopolitical 
environment.
    Mr. Rogers. What is Plan B if we can't do pit reuse now that we 
have postponed CMRR-NF? If you need a certain number of pits per year 
with reuse, how many do you need without it? Do you agree with the Navy 
and the Nuclear Weapons Council that we need an ``off ramp'' for the 
Navy and the W88 warhead if an Interoperable Warhead doesn't prove 
technically feasible or affordable?
    General Kehler. The Nuclear Weapons Council (NWC) recently approved 
a long term stockpile modernization strategy that includes a number of 
decision points and ``off ramps'' to address warhead life extension 
technical and affordability risks. NNSA has developed an interim 
plutonium production capability plan to support near term warhead life 
extension programs and they are continuing to develop an enduring 
plutonium pit production strategy. Elements of this plan will be 
included in the pit production requirements report required by the 
Fiscal Year 2013 National Defense Authorization Act.
    Mr. Rogers. Two weeks ago, at the House Energy and Water 
Appropriations subcommittee hearing on the FY14 budget, Chairman 
Frelinghuysen asked Don Cook, the Deputy Administrator for Defense 
Programs, if further reductions in the U.S. stockpile would save money 
in the annual budget. Dr. Cook's response was, ``I'd answer the 
question directly by saying not much . . . So not much savings will be 
achieved.'' Do you agree with Dr. Cook? With any further reductions, 
should we expect cost savings directly proportional to the size of the 
cuts in the force structure or stockpile?
    General Kehler. I agree with Dr. Cook's assessment. While over the 
long term, a smaller force structure and stockpile would require fewer 
resources, cost savings are not directly proportional to reductions. 
Regardless of the force structure or stockpile size, there is a certain 
level of fixed costs associated with maintaining a safe, secure, and 
effective nuclear deterrent capability.
    Mr. Rogers. We hear that we could save $120B over ten years by 
implementing the Global Zero report, which calls for postponing the 
next generation bomber and Ohio-replacement and immediately eliminating 
the ICBM land-based leg of our deterrent, not building CMRR-NF or UPF, 
and reducing the U.S. stockpile to a total of 900 warheads, with only 
450 deployed. Do you support that plan? Please explain why or why not?
    General Kehler. No, I do not support the illustrative changes to 
our force structure, posture and supporting infrastructure in the 
Global Zero report. These illustrative changes are not consistent with 
the current security environment.
    Mr. Rogers. What are your concerns about the Global Zero 
recommendation that the U.S. take steps to ensure a 48 hour to 72 hour 
delay in responding to nuclear attack on the United States? Do you 
believe the President of the United States should have his hands tied 
in that way?
    General Kehler. In today's security environment, I do not support 
the introduction of a delay in response timelines. Introducing 
mandatory delays in response time can be destabilizing for two primary 
reasons: such a delay is largely unverifiable, and early moves to 
reposture in a crisis could be interpreted as threatening or 
immediately escalatory.
    Mr. Rogers. It is now March 2013, we have to implement the New 
START by February 2018. How soon do we need to start implementing that 
treaty? Some suggest we should go to New START levels now and not wait 
until 2017/18. Is it as easy as that? Can we just implement New START 
tomorrow?
    General Kehler. We began implementing the New START as soon as it 
entered into force in February 2011. Early treaty implementation 
activities included exchanging strategic databases with the Russians, 
conducting bomber and submarine exhibitions, and viewing a Russian 
exhibition of a new, mobile ICBM. The process of adjusting U.S. nuclear 
force levels in an efficient manner involves an intricate series of 
activities that will take a number of years. We completed the 
conversion of B-1B bombers to non-nuclear capability and continue to 
eliminate mothballed B-52G bombers. In the coming years, we will 
eliminate unused Peacekeeper and Minuteman ICBM silos, reduce the 
number of warheads carried aboard ballistic missile submarines, de-MIRV 
ICBMs, and convert additional B-52H bombers to a non-nuclear role. 
USSTRATCOM is overseeing the New START implementation plan and we are 
confident that we will meet our obligations within the prescribed 
timeframe.
    Mr. Rogers. At present, there is no LRSO warhead LEP in the 
production schedule at NNSA. When will we see an LRSO warhead in the 
production queue at NNSA? Will it follow the W76, B61 and W78? Will it 
be slipped in somewhere? To what extent is NNSA's ability to execute 
all of these life extension programs a concern to you?
    General Kehler. The NWC-approved stockpile modernization strategy 
aligns NNSA's workload with DOD platform development and acquisition 
schedules, including LRSO warhead production which currently follows 
the B61 LEP. A primary consideration in this plan is the ability of 
NNSA to execute multiple warhead life extension and sustainment 
programs in an efficient and affordable manner. With adequate, 
sustained funding, the risk to accomplish these life extension programs 
is manageable.
    Mr. Rogers. In the past several years, DOD has transferred billions 
of dollars in budgetary authority to NNSA to pay for DOD's top 
priorities in NNSA's programs. Did you support these funds transfers to 
DOE to help provide the resources for nuclear deterrent modernization 
programs? Can you say what DOE did with that Department of Defense 
money? Are you satisfied with DOD's ability to understand where and how 
DOE/NNSA is spending that money?
    General Kehler. Following the 2010 Nuclear Posture Review, DOD 
agreed that NNSA required additional funding to support nuclear weapon 
stockpile and Naval Reactors activities. I support that decision and 
the subsequent transfer of DOD funds for weapon surveillance, 
maintenance, and life extension activities. Over the past year, the 
Nuclear Weapons Council (NWC) worked closely with NNSA to develop and 
approve an executable, long term stockpile management strategy which 
increased our awareness of how DOD funds are being applied to sustain 
our Nation's strategic deterrent capabilities. Increased NWC visibility 
into NNSA's financial process to include DOD certification of NNSA's 
budget, have been positive changes. We will continue working with NNSA 
to ensure our nuclear deterrent remains safe, secure and effective.
    Mr. Rogers. In your response to Mr. Turner, you said that while you 
believe the NNSA's most recent plan for plutonium capabilities now 
``does close, it's not without risk''. Would you please elaborate on 
those risks? Are you confident that NNSA can execute this plan, if 
provided the resources to do so? Do you believe the interim plutonium 
strategy has sufficient detail for you to be comfortable with it and 
NNSA's ability to carry it out? Do you believe the long-term plutonium 
strategy NNSA prefers--the modular approach to replacing plutonium 
capabilities--has sufficient detail for you to be comfortable with it 
and NNSA's ability to carry it out?
    General Kehler. While every program can experience technical and 
production risks, an uncertain fiscal environment remains my primary 
concern in sustaining a safe, secure and effective nuclear deterrent. 
NNSA has identified the necessary resources for an interim plutonium 
production plan using existing facilities that will meet our near-term 
weapon life extension requirements. A modular approach to develop an 
enduring plutonium production capability seems reasonable, but I do not 
have sufficient details to render an opinion. I will continue to work 
with NNSA on the long-term plutonium strategy until I have sufficient 
detail to certify the concept and associated budget.
    Mr. Rogers. You mentioned in your response to Mr. Turner that a 
responsive production infrastructure is ``one consideration'' for 
whether or not we can reduce our hedge stockpile--but that you ``don't 
think that's the only consideration.'' Would you please elaborate on 
these considerations, as well as how the need for a responsive 
infrastructure is linked to potential reductions in our hedge 
stockpile?
    General Kehler. Historically, the U.S. retained a non-deployed 
stockpile of weapons to manage risk against technical problems and 
geopolitical uncertainty. Recapitalizing or replacing our aging 
plutonium and uranium production facilities could enable us to reduce 
the non-deployed stockpile as we demonstrate the capability to address 
these risks in a timely fashion. Other considerations that determine 
the size of the non-deployed stockpile and production infrastructure 
capabilities include: National policy and strategy objectives; 
geopolitical conditions; arms control agreements; force composition and 
condition of our delivery systems; warhead and component aging; and the 
need for improved safety and security.
    Mr. Rogers. At what force size does the ICBM force become 
unsustainable from a personnel standpoint? Would reductions in the size 
of the ICBM force below a certain level hinder the Air Force's ability 
to attract and retain skilled officers and enlisted personnel to the 
missile force? What impacts might de-alerting the ICBM force have on 
personnel, morale, and the ability to attract and retain skilled 
officers and enlisted personnel to the missile force?
    General Kehler. The 2010 NPR concluded that the current alert 
posture of U.S. strategic forces, including nearly all ICBMs on alert, 
should be maintained. It is premature to speculate on further 
reductions to the ICBM force or the broader impact of potential force 
changes on the ICBM enterprise. As we reduce the size of the nuclear 
force to meet our New START obligations, we will work with the Services 
to ensure we attract and retain the skilled Airmen and Sailors we need 
for this important mission.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. I am concerned about news reports indicating 
discussion of a U.S. nuclear presence in South Korea. What are the 
risks involved with the redeployment of tactical nuclear weapons to the 
peninsula?
    Admiral Locklear. The U.S.-ROK Alliance is prepared to deter, and 
if necessary, defeat aggression from the North without the need for 
nuclear weapons stationed or positioned in South Korea.
    It is my judgement, and the judgement of the Commander of U.S. 
Forces Korea, that the addition of nuclear weapons to Korea is 
unnecessary. If required to do so, the U.S. has the ability to deliver 
nuclear weapons without basing them in Korea. Further, we have robust 
conventional capabilities that can be immediately employed in 
deterrence.
    The deployment of nuclear weapons, in addition to being militarily 
unnecessary, could appear to conflict with broader U.S. non-
proliferation and denuclearization efforts, providing propaganda 
opportunities for North Korea and other critics.
    We have been assured by ROK military and political leaders that 
there is no serious consideration by the new ROK government of 
demanding the re-introduction of U.S. tactical nuclear weapons or 
pursuing an indigenous program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. What is the Joint Warfare Analysis Center's (JWAC's) 
Budget Requirement?
    Does USSTRATCOM have a $30M deficiency and is a minimum of $4M of 
this associated with JWAC?
    Will the $4M shortfall at JWAC impact manpower and civilian pay?
    What steps is STRATCOM taking to work with the USAF to ensure an 
ATR is in place to address the deficiency at JWAC?
    General Kehler.
    -- FY13 PB includes $77M for JWAC Operations and Maintenance (O&M).
    -- H.R.933 reduces the USSTRATCOM O&M PB request by $88M. The H.R. 
933 reduction combined with Sequestration; place USSTRATCOM at high 
risk of a significant FY13 O&M deficiency. The exact level of 
deficiency is unknown pending release of Command FY13 funding.
    -- Included within the $88M reduction is a negative $12M mark 
citing ``Civilian pay inconsistency for Joint Forces command 
restructure''. Per conversation with HAC and SAC Professional Staff 
Members, this mark is directly related to the transfer of JWAC civilian 
pay from USJFCOM to USSTRATCOM. While JWAC civilian pay was reduced by 
30% from the FY12 level to account for a reduction in force, the 
request included in the PB is the appropriate amount required to 
maintain the revised/authorized FY13 workforce level. To that end, the 
Appropriation Bill underfunds JWAC civilian pay account by $12M. The 
deficiency in JWAC civilian pay coupled with general reductions to 
USSTRATCOM O&M accounts and Sequestration directly impacts funding 
available for JWAC.
    -- After considering mitigation measures available internally 
within USSTRATCOM, we currently estimate there is a minimum $4M 
shortfall in JWAC O&M account for FY13.
    -- USSTRATCOM is engaged with USAF to address the O&M shortfalls 
and is confident civilian pay will be satisfactorily addressed either 
through below threshold reprogramming (BTR) or above threshold 
reprogramming (ATR) action. USSTRATCOM is also working with USAF and 
OSD to address remaining high priority O&M shortfalls, to include JWAC, 
through ATR.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. I agree with President Obama that, ``Now is the 
time to reach a level of research and development not seen since the 
height of the space race.'' I'm concerned that Federal funding for R&D 
has been shrinking as a percentage of our GDP, and with sequestration 
and current trends continuing, that we may not only lose our leadership 
position but be unable to meet global challenges. What do you see as 
the most significant challenges where our research and development 
investments could help in PACOM's AOR?
    General Kehler and Admiral Locklear. With respect to the challenges 
we face in the Indo-Asia-Pacific, USPACOM develops the Integrated 
Priority List to define what we believe are our most significant 
challenges in the theater. These are binned into five broad categories 
and provided to the joint staff and the Secretary of Defense to help us 
address these problems. Broadly, our biggest concerns are: 1) Command 
and control, Cyber Defense, Intelligence, Surveillance, and 
Reconnaissance, 2) mitigation of Anti-Access, Area Denial capabilities, 
3) potential shortages in critical munitions, 4) detection, 
identification, tracking and engaging both submarines and unmanned 
underwater systems and 5) improvements in our logistics support 
capabilities.
    Ms. Shea-Porter. You say in your testimony that ``China's rapid 
development of advanced military capabilities, combined with its 
unclear intentions, certainly raises strategic and security concerns.'' 
What are the implications of China's military modernization for PACOM's 
posture?
    Admiral Locklear. China is continuing to pursue its long-standing 
policy of military modernization. This is the natural impulse of any 
nation enjoying a period of growth and prosperity. We do not view PRC's 
military modernization by itself as a concern, but we do have concern 
about the lack of transparency of Chinese intentions and a lack of 
clarity of PRC willingness to use military force to resolve disputes in 
the region. For example, China's comprehensive network of excessive 
maritime claims coupled with its military modernization program has 
created anxiety among its neighbors and other maritime nations. Through 
expanded engagement with the People's Liberation Army, USPACOM seeks to 
increase the level of transparency of PRC intentions underlying this 
military modernization policy and message them directly on our concerns 
as well as those of the region. Additionally, through military 
readiness, we will remain ready to undertake operations across the full 
spectrum of military activities in support of regional security and 
stability. A consistent U.S. presence in the region serves to reassure 
partners and allies of continued U.S. commitment to the region.
    Ms. Shea-Porter. The Department's strategic guidance calls for 
cooperative partnerships to bolster common interests in the region. 
What are some examples of the kinds of innovative partnerships that 
PACOM can assist in developing?
    Admiral Locklear. Strengthening partnerships with allies, partners, 
and other organizations and agencies is a central pillar of the USPACOM 
five-year Theater Campaign Plan for peacetime activities. In ballistic 
missile defense (BMD), we are working with Japan and Republic of Korea 
to integrate sense, warn, and interdiction capabilities. We are also 
coordinating efforts with these allies in shared maritime, space, and 
cyberspace domains to strengthen the situational awareness and 
capabilities of partners like the Philippines and Vietnam. These 
activities address shared threats and advance common interests across 
the region. USPACOM is also reaching out to China, welcoming their 
participation in the Rim of the Pacific (RIMPAC) multilateral exercise 
in 2014.
    In addition to expanding relationships with allies and partners, 
USPACOM works with regional organizations such as the Association of 
Southeast Asian Nations (ASEAN) through the ASEAN Regional Forum and 
ASEAN Defense Minister's Meeting-Plus. Through these organizations, we 
build collaborative approaches to challenges ranging from maritime 
domain awareness to counter-terrorism and non-proliferation. For 
example, with our co-chair Indonesia, we are preparing to conduct the 
inaugural Counterterrorism Exercise (CTX) of the ASEAN Defense 
Ministers' Meeting-Plus (ADMM-Plus) Experts Working Group (EWG) on 
Counterterrorism in 2013.
    Humanitarian Assistance and Disaster Relief (HA/DR) activities 
provide a particularly important way to establish foundational 
relationships that can lead to greater opportunities for partnership in 
the future. An innovative example of this type of humanitarian 
assistance is PACIFIC PARTNERSHIP, an annual deployment of personnel 
from the U.S. military, host nations, partner nations, and non-
governmental organizations that provide humanitarian, medical, dental, 
and environmental assistance to countries in the Indo-Asia-Pacific. In 
2012, PACIFIC PARTNERSHIP included twelve participating nations, four 
host nations, and 23 NGOs. Participants treated over 49,000 patients, 
7,000 animals and performed 104 community service projects in Cambodia, 
Indonesia, the Philippines, and Vietnam. This type of cooperation 
strengthens host nation resiliency while building USPACOM's and other 
countries and organizations' capability to respond effectively to 
natural disasters and humanitarian crises.
    Ms. Shea-Porter. In your testimony, you say that China ``questions 
the sustainability of the rebalance, pointing to sequestration and 
other looming fiscal issues.'' Are other Pacific nations also beginning 
to question our commitment to the Pacific region? Has the seemingly 
endless dispute over sequestration and the budget made us seem weaker 
and increased our strategic risk in the Pacific?
    Admiral Locklear. It is fair to say that the regional audience is 
closely watching the political process in Washington, D.C. and they 
have voiced concerns to me personally over potential impacts to the 
theater.
    Ms. Shea-Porter. You say, as a result of sequestration cuts, that 
``Degraded facilities put missions at risk and delayed MILCON projects 
endanger the implementation of international agreements.'' This sounds 
like a real problem. Can you be more specific?
    Admiral Locklear. Sequestration cuts have driven the Services to 
cut sustainment funding by approximately 60%, causing facility 
sustainment activities not directly related to life, health, and safety 
to cease. Thus, projects like replacement or improvements to lighting 
and environmental systems and facility repairs are no longer being 
performed. Additionally, restoration or modernization projects such as 
those required to facilitate mission stationing or beddown decisions, 
and facility reduction programs to increase energy efficiency are 
unfunded and deferred.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. General Kehler, I understand that the United States has 
lost some of its institutional knowledge regarding the manufacture of 
rocket motors and that we have been forced to look overseas for help in 
the manufacture of the rocket motors we require for certain missiles. 
Personally, I see this loss of our ability to produce state of the art 
technology and products as a threat to our national security. The 
expertise of our industrial base, once lost, is not easily reversed, 
and I fear that in a time of fiscal constraint and sequestration for 
the Department of Defense, we could lose more experienced 
manufacturers. General, what is Strategic Command doing to preserve our 
critical industrial base skills and helping to keep them here at home 
in America? Do you agree that keeping this institutional knowledge here 
in the United States is a matter of national security?
    General Kehler. Successful and efficient execution of any future 
strategic modernization or development program requires an industrial 
base workforce with critical engineering, technical, and program 
management skills. Unfortunately, strategic rocket motor demand has 
been on a steady decline for the last two decades, placing a heavy 
burden on Navy and Air Force resources to keep it viable. Planned 
investments across our entire strategic deterrent enterprise offer the 
Department and our industrial partners the opportunity to right-size 
rocket motor production capacity for the short term while retaining 
critical skills for the future. With adequate resources, the ongoing 
and planned delivery platform, weapon, and facility upgrade programs 
will exercise the unique skills across the industrial base maintaining 
this critical capability.
    Mr. Barber. Admiral Locklear, in your testmony, you mentioned that 
on average over 100 IEDs occur per month in the PACOM area of 
operations. This fixture of the Iraq and Afghanistan wars is now being 
used in the Southeastern Pacific--in the Philippines, Indonesia, and 
Thailand. You also mentioned that PACOM has made progress in building 
partner capacity in the region. In 2004, the Department of Defense 
began researching methods to defeat the IED threat. This effort led to 
the eventual creation of the Joint IED Defeat Organization (JIEDDO). 
Since its inception, JIEDDO has been on the cutting edge of technology 
to find and defeat IEDs. A good deal of JIEDDO's research and testing 
has occurred in my home district at the Electronic Proving Grounds at 
Fort Huachuca, Arizona. Admiral, my question to you is this, how much 
of the hard work and testing that JIEDDO has conducted at places like 
the Electronic Proving Ground have we used, and will we use to continue 
building our partner capacity with allied nations to find and defeat 
IEDs in the Pacific region?
    Admiral Locklear. Through a JIEDDO-assigned USPACOM Integrator on 
the USPACOM staff and multiple Counter improvised explosive device 
Operations Integration Center (COIC) personnel embedded with 
subordinate commands, my headquarters and service components leverage 
the diverse capabilities of JIEDDO and its proving grounds to attack 
the network, defeat the device, train the force and build partnership 
capacity in theater. We continue to train our joint force not only to 
successfully operate in IED environments in Afghanistan, but in such 
places as the Philippines, Indonesia and Thailand. The Asia Pacific 
CIED Fusion Center (APCFC), as part of United States Army Pacific 
(USARPAC), collaborate with partners in Australia and New Zealand to 
improve intelligence sharing and training within the theater, and plans 
to conduct training and engagements with over a dozen allied and 
partner nations this year. JIEDDO's hard work and testing enable all 
these efforts.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. Your testimony says that STRATCOM is pursuing 
``new processes and relationships'' with other COCOMs to better 
synchronize planning and operations. What are examples of these ``new 
processes and relationships''? Does this effort include reassessments 
of joint operational plans?
    General Kehler. The extensive re-write of our operational plans has 
the personal attention of our most senior government officials and will 
remain my highest priority over the course of this year. We have made 
significant progress through our objective-based, systems-based 
approach to planning that will ultimately align and synchronize our 
plans with those of other Combatant Commands. This unprecedented level 
of integration makes certain that when executed, these plans and 
operations will function as a single, coherent American campaign. 
Although I am very encouraged by the teamwork thus far, meeting our 
aggressive timeline for completion will require the continued support 
of the entire Command and our external partners.
    Mr. Bridenstine. I am always concerned about international bodies 
or other nations being able to check our freedom of action in space. Do 
you support international ``rules of the road'' governing behavior in 
space? If so, wouldn't these rules impact our military freedom of 
action?
    General Kehler. Many nations share the space domain and it is in 
our best interest to create an environment where the sharing of SSA 
data facilitates transparency and enhances safety and security. I agree 
the time is right for the development of a standard set of norms that 
promotes the safe and responsible use of space for all space-faring 
nations. I support DOD's proposed norms of behavior approved by the 
DepSecDef last July because I believe they are in our National Security 
interest and preserve sufficient military freedom of action.
    Mr. Bridenstine. Your testimony notes the challenges of spectrum 
management. In an increasingly spectrum-hungry world it seems like 
these we face tradeoffs between protecting military access to spectrum 
and providing spectrum for economic competitiveness. How does STRATCOM 
de-conflict spectrum requirements? How does the newly established Joint 
Electromagnetic Spectrum Operations Office (JEMSO) contribute to 
rational allocation of spectrum to its best uses?
    General Kehler. USSTRATCOM's spectrum use and de-confliction 
responsibilities are in accordance with national and associated DOD 
regulations and policies. The USSTRATCOM JEMSO Office serves as the 
lead for electromagnetic spectrum control and management issues. The 
JEMSO Office works with partners in the Department of Defense and other 
Combatant Commands to assess tradeoffs between civilian and military 
demands on the spectrum based on the survivability, availability, and 
criticality of military systems. Additionally, USSTRATCOM is the 
operational sponsor of the Global Electromagnetic Spectrum Information 
System (GEMSIS) which provides increased spectrum situational awareness 
to reconcile competing spectrum use.
    Mr. Bridenstine. In your testimony, you note the importance of 
intelligence support to operations, specifically making `` `all sensed 
data' available to our analysts.'' You also stated that you need 
``effective command and control over ISR in real-time.'' Do current 
authorities not give you effective C2 now? What changes can Congress 
make to increase your ability to direct ISR assets?
    Admiral Locklear. Current authorities give USPACOM effective 
Command and Control (C2) of its assigned forces. C2 of ISR, 
specifically, broadens the definition to include working with ISR 
capabilities, which are not necessarily ``assigned'' to USPACOM, but 
are depended on in order to execute operations. USPACOM relies upon 
real time visibility, transparency, and the ability to dialog with 
those non-PACOM entities that do control other assets. Congress can 
help by continuing to support the development of information technology 
solutions that provide transparency with national capabilities and 
those of our trusted allies and partners we need.
    Mr. Bridenstine. You note that Japan has pledged $3.1 billion to 
help relocate our Marines to Hawaii and Guam as part of the Defense 
Policy Review Initiative. Please provide a cost breakdown for planned 
actions associated with the Realignment Roadmap. As the Roadmap has 
changed from its inception, has the U.S. assumed a greater cost sharing 
burden? If so, by what justification?
    Admiral Locklear. The U.S. cost-sharing burden is decreased under 
the new Distributed Laydown Plan (DLP). Preliminary DLP analysis 
indicates this plan is less in cost than the original 2006 Defense 
Policy Review Initiative (DPRI) to relocate 8,000 Marines to Guam.
    The preliminary estimate to execute DLP is $13.7B (FY12 dollars). 
The 26 Apr 2012 U.S./Japan ``2+2'' Statement expressed bilateral 
commitment to the DLP, which reduces over 9,000 Marines from Okinawa 
and relocates 4,700 to Guam, 2,700 to Hawaii and up to 2,500 to 
Australia as an expeditionary rotational presence. Japan's commitment 
to contribute $3.1B was reconfirmed in the 26 Apr 2012 ``2+2'' 
Bilateral Statement. The U.S. contribution to complete the plan is 
currently $10.6B for a total cost estimate of $13.7B.
    A refined budget-level quality cost estimate will occur after the 
Environmental Impact Statement (EIS) selection of Preferred 
Alternatives for Marine cantonment and training range locations on Guam 
and Hawaii. The Guam EIS is currently under development and selection 
of preferred alternatives is scheduled to occur in June 2013. Master 
planning and detailed cost estimates for budget planning will begin 
once the preferred alternatives are identified. Hawaii's EIS is not 
scheduled to begin until early next decade following the Marine's 
establishment of initial operational capability on Guam. Hawaii land 
use studies are currently in progress to examine Hawaii Department of 
Defense-controlled lands to develop beddown alternatives using existing 
infrastructure that will be analyzed in detail in the future Hawaii 
EIS. Hawaii land use studies are scheduled to be completed in December 
2013.

                                  <all>

</pre></body></html>
